<html>
<title> - TWO YEARS LATER: THE ONGOING DETENTIONS OF NOBEL PEACE PRIZE LAUREATE LIU XIAOBO AND HIS WIFE LIU XIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]









 TWO YEARS LATER: THE ONGOING DETENTIONS OF NOBEL PEACE PRIZE LAUREATE 
                    LIU XIAOBO AND HIS WIFE LIU XIA

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2012

                               __________

 Printed for the use of the Congressional-Executive Commission on China






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.cecc.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

78-598 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)













                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Brown, Hon. Sherrod, a U.S. Senator from Ohio; Cochairman, 
  Congressional-Executive Commission on China....................     4
Gershman, Carl, President, National Endowment for Democracy......     6
Yang, Jianli, President, Initiatives for China/Citizen Power for 
  China..........................................................     8
Griffith, Patrick, Program Attorney, Freedom Now.................    10
Yu, Jie, independent author and associate of Liu Xiaobo..........    12
Liu, Min, wife of Yue Jie; friend of Liu Xiaobo and Liu Xia......    13

                                APPENDIX
                          Prepared Statements

Gershman, Carl...................................................    26
Yang, Jianli.....................................................    27
Griffith, Patrick................................................    29
Yu, Jie..........................................................    31
Liu, Min.........................................................    34

Smith, Hon. Christopher..........................................    35
Brown, Hon. Sherrod..............................................    37

 
 TWO YEARS LATER: THE ONGOING DETENTIONS OF NOBEL PEACE PRIZE LAUREATE 
                    LIU XIAOBO AND HIS WIFE LIU XIA

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2012

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:12 
a.m., in room 2118, Rayburn House Office Building, 
Representative Christopher Smith, Chairman, presiding.
    Also present: Senator Sherrod Brown, Cochairman.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. Welcome 
to everyone.
    Two years after the independent Nobel Committee awarded the 
Nobel Peace Prize to Chinese intellectual and democracy 
activist Liu Xiaobo, little has changed. Liu Xiaobo remains 
isolated in prison. He remains thousands of miles away from his 
wife, Liu Xia, who authorities have now held under house arrest 
for some 26 months.
    Chinese authorities continue to defend their imprisonment 
of Liu Xiaobo and to deny his wife is under de facto house 
arrest. Despite global calls for the release of the Nobel Peace 
Prize laureate and his wife, Chinese authorities remain 
resolute in their will to silence them.
    It has now been a year since we last convened a hearing to 
discuss this outrageous and senseless violation of Liu Xiaobo 
and his wife's rights. A year later we ask the same questions 
and express the same concerns.
    Liu Xiaobo's ordeal is well known. In December 2010, the 
Nobel Committee awarded the Nobel Peace Prize to Liu Xiaobo for 
``his long and non-violent struggle for fundamental human 
rights in China.'' A year earlier, Chinese authorities 
sentenced him to 11 years in prison for ``inciting subversion 
of state power,'' the longest known sentence for that so-called 
crime, simply because he exercised his internationally 
recognized right to free expression.
    Liu's condition, according to court documents, was based on 
Charter 08 and six essays that he wrote. Mr. Liu's trial, 
conviction, and sentence once again demonstrated the Chinese 
Government's failure to uphold its international human rights 
obligations and its failure to abide by procedural norms and 
safeguards that meet international standards.
    Liu Xiaobo co-wrote and signed Charter 08 and treaties 
urging political and legal reforms based on constitutional 
principles. Charter 08 states that freedom, equality, and human 
rights are universal values of humankind and that democracy and 
constitutional government are the fundamental framework for 
protecting these values.
    In response to this public call for rights and reform, 
officials blocked access to, and censored all mention of, 
Charter 08. They questioned, summoned, or otherwise harassed 
hundreds of Chinese citizens for contributing to or signing the 
document.
    To many of us it was reminiscent of Charter 77, that great 
document written by many people in the former Czech Republic, 
Czechoslovakia at the time. That document, like so many others 
around the world, including Charter 08, articulates what we all 
believe is enshrined in the universal declaration of human 
rights. Every person, man, woman, or child, is deserving of 
those fundamental human rights.
    Today we have little news about Liu Xiaobo's current 
condition. Liu remains in prison. There is little doubt that 
the Chinese continue to treat him unmercifully. Sadly, we do 
have some news. While we knew authorities continued to hold 
Liu's wife under a de facto form of house arrest with little 
contact from the outside world, we have recently learned more 
about her unbearable circumstances and detention.
    Last week, two Associated Press journalists were able to 
briefly interview Liu Xia while the guards that kept watch over 
her were away for a midday break. Upon opening the door, the 
journalists found a woman shocked by the rare opportunity to 
communicate with those outside her prison. She wept and decried 
the injustice and absurdity of her detention.
    She told them of her poor health and of the outrageous 
abuses that she has suffered. Her ongoing plight has been 
referred to by some as the most severe retaliation by a 
government given to a Nobel winner's family. In violation of 
Chinese law, Liu Xia remains detained, a victim of the 
government's contempt, its paranoia, and its weakness. Angered 
by Liu's award and his global support, Chinese authorities have 
unjustly detained this innocent woman as well.
    The targeting of wives and children, grandparents and 
associates, however, remains a common practice for the Chinese 
Government. A few weeks ago, a nephew of Chen Guangcheng, the 
blind activist who escaped to the United States earlier this 
year, was sentenced to 39 months in prison after defending 
himself from thugs who had attacked his family. As with Liu 
Xiaobo's case, the trial was marred by procedural 
irregularities and gross violations.
    In recent months, the wife and child of a Mongolian 
activist, Hada, have been illegally confined to their home and 
blocked from communicating with others. Today we will hear 
moving first-hand accounts of how families suffer when 
courageous individuals speak out against the Chinese 
Government, especially its human rights abuses.
    This, of course, is not a new tactic by the Chinese 
authorities. In recent years we have heard how Chinese 
officials, and those operating under their authority, have 
interrogated children or harassed acquaintances. Chinese guards 
have shouted expletives at school-aged children, sons and 
daughters, and enforced economic reprisals against relatives 
and loved ones.
    Liu Xia is not alone, but she remains a symbol of these 
often overlooked collateral victims. Why target family members 
and friends? The Chinese Government fears the free thinkers 
they love and support. It acts in ways to silence those free 
thinkers who promote the best ideals and seek the greatest good 
for China.
    In China, free thinkers represent a threat to the 
government's so-called stability, while representing new hopes 
for the Chinese people. This threat of reform is China's 
greatest concern. Recently after the sentencing of Chinese 
official Bo Xilai's wife for intentional homicide, leading 
human rights and China experts suggested that she might receive 
a medical pardon after nine years. Nine years for murder, as 
compared to 11 for Liu Xiaobo's call for freedom?
    This is the China we are dealing with, one in which 
premeditated murder is viewed with less concern than calls for 
non-violent political reform, a China in which Chinese 
officials are sentenced to reclusive, plush prisons while wives 
and children and parents of rights advocates are doomed to a 
Kafkaesque existence, languishing in domestic prisons without 
opportunities for appeals or pardons.
    A year after our last hearing on the subject, little has 
changed. Mr. Liu Xiaobo remains in prison and his wife under an 
extralegal form of house arrest. Our resolve, however, has not 
changed. In fact, it has grown even stronger. Today we are more 
concerned about the current conditions for Liu Xiaobo and his 
wife. We are more outraged at the lack of humanity demonstrated 
by those perpetrating these crimes, for the thugs guarding Liu 
Xia's door, and the newly appointed leadership in Beijing.
    Today, our resolve and the resolve of free-minded people 
is, without question, stronger. A few years ago, we called on 
China to immediately and unconditionally release Liu Xiaobo and 
his wife. Today we similarly demand China end this absurdity 
for these noble citizens and for all who remain detained in 
China for their political or religious beliefs.
    We have not forgotten Liu Xiaobo and his wife. We commit to 
seeking their release from confinement and detention. We will 
not forget them next year, or any year thereafter, regardless 
of the circumstances. We will continue to demand their freedom 
and continue to demand that all Chinese citizens enjoy the 
fundamental freedoms under international law.
    It is with this resolve and concern that we are joined 
today by a panel of extraordinary experts on these cases and on 
China more broadly, and I would like to thank them for their 
advocacy, for their tireless efforts on behalf of freedom, 
democracy, and human rights in China, especially for their deep 
concern and abiding love for Liu Xiaobo and his wife, and for 
being here today to share those thoughts with us.
    I would like to now yield to the Cochair of the Commission, 
my good friend and colleague, Senator Brown.
    [The prepared statement of Chairman Smith appears in the 
appendix.]

 OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. SENATOR FROM 
 OHIO; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Senator Brown. Thank you, Mr. Chairman, for hosting this 
hearing. The Chairman and I stand united behind this cause and 
I am grateful for his efforts.
    We stand with our government, we stand with governments 
around the world, and the 134 Nobel laureates, led by 
Archbishop Tutu, to urge incoming Chinese President Xi Jinping 
to immediately and unconditionally release Liu Xiaobo and his 
wife Liu Xia.
    Let me be clear, there is no question that China has made 
progress on many fronts, but we know that the Chinese people 
are not, and should not, be satisfied with economic progress in 
the absence of justice. We know that Chinese citizens, like 
women and men around the world, want and deserve basic human 
rights. They deserve freedom, justice, and equality of 
opportunity. They deserve to voice their opinions without fear 
of oppression.
    That is why we are here today. For decades, Liu Xiaobo has 
been one of the most passionate and thoughtful advocates for 
freedom and justice and human rights in China. He was a leader 
who returned to his country from New York during the 1989 
Tiananmen democracy protest. He has written nearly 800 essays 
advocating human rights and peaceful reform. He was one of the 
co-authors of Charter 08, a document released four years ago 
calling for an end to authoritarian rule and respect for human 
rights.
    For this, Liu has been censored. He has endured three years 
in a labor camp and now he is serving the 4th year of an 11-
year prison sentence. That is why, when the Nobel Committee 
awarded Liu the Peace Prize in 2010, they noted his long and 
non-violent struggle for fundamental human rights in China.
    They understood, the world understood, just as many in 
China understand, that freedom and human rights are not freely 
given. It takes courage and commitment. It takes people like 
Liu who are willing to sacrifice for their neighbors, their 
families, their fellow citizens, and the next generation.
    Dr. Martin Luther King, Jr., a Nobel laureate himself of 
course, popularized this struggle as the fierce commitment to 
building the ``beloved community.'' Liu follows in the 
tradition of Peace Prize winners like Dr. King who labored to 
build a better world brick by brick.
    In 1991, as we know, the Nobel Committee awarded the prize 
to Aung San Suu Kyi for her democratic opposition to a brutal 
regime. All of these activists have fought oppression with a 
message of non-violence at terrific personal sacrifice and an 
unwillingness to give up.
    Liu spoke about the efficacy of non-violence in 2006 when 
he wrote ``the greatest of non-violence resistance is even as 
man is faced with forceful tyranny . . . the victim responds to 
hate with love . . . and to violence with reason.'' Each day 
China denies citizens like Liu basic freedoms, China loses out 
on the diversity of opinions that lead to better government 
policies, a better country, and a more just society.
    Imprisoning Liu is not the act of a nation serious about 
earning a place of respect at the global table. It is an act of 
an authoritarian state afraid, afraid of the strength of its 
own people. When Aung San Suu Kyi was finally able to give her 
Nobel acceptance speech 20 years later in June of this year, 
more than two decades after being awarded the prize, in her 
speech she said everyone is capable of contributing to peace.
    Liu exemplifies the courage needed to cultivate justice. We 
urge China to release the Liu family. They should not have to 
wait two decades. He should not have to wait two decades to 
give his own acceptance speech. We look forward to that day.
    [The prepared statement of Senator Brown appears in the 
appendix.]
    Chairman Smith. Thank you, Chairman Brown.
    I would like to now introduce our very distinguished panel 
of witnesses, beginning first with Carl Gershman, President of 
the National Endowment for Democracy. Mr. Gershman joined us 
last year for our hearing on Liu Xiaobo and we are happy to 
welcome him back. Mr. Gershman has presided with extraordinary 
effectiveness and balance over the Endowment's grants program 
in Africa, Asia, the Middle East, Eastern Europe, the former 
Soviet Union, and Latin America, and it is great to see him 
again. I know that the work he does has had a profound effect 
worldwide.
    We will then hear from Dr. Yang Jianli, who is the 
President of Initiatives for China. Dr. Yang is a distinguished 
scholar and democracy activist, internationally recognized for 
his efforts to promote democracy and human rights in China.
    Forced to flee China after 1989, Dr. Yang returned in 2001 
and was imprisoned by Chinese authorities. Following his 
release in 2007, Dr. Yang founded Initiatives for China, also 
known as Citizen Power for China, a nongovernmental 
organization that promotes China's peaceful transition to 
democracy.
    I would note parenthetically that it was my honor to join 
him in Oslo when Liu Xiaobo was awarded the Nobel Peace Prize. 
He was one of the leaders of the Chinese activists who was 
there and played a very prominent role in Liu Xiaobo receiving 
that award in the first place. I just want to thank him for his 
leadership on all of these issues, but especially for that. It 
was an honor to be with him.
    Our next witness is Mr. Patrick Griffith, a program 
attorney at Freedom Now, a Washington, DC-based legal advocacy 
organization that works to free prisoners of conscience around 
the world, including Chinese citizens Liu Xiaobo and Gao 
Zhisheng.
    A graduate of Georgetown University Law Center, Mr. 
Griffith currently serves as co-international pro bono legal 
counsel to Liu Xiaobo and his wife, Liu Xia. So, thank you as 
well for that great advocacy.
    We will then hear from Mr. Yu Jie, a best-selling author in 
China and a close associate and biographer of Liu Xiaobo. Yu is 
one of the co-authors and co-signers of Charter 08. In January 
2012, Yu and his family fled China after being released from 
extralegal home confinement. Yu and his family later received 
political asylum in the United States.
    Finally, we will hear from Liu Min, Yu Li's wife and a 
close associate of Liu Xia. Because of her husband's activism 
and outspokenness, Ms. Liu was likewise subjected to 
unfortunate reprisals and de facto house arrest. We thank her 
for her participation here today, as well as the ordeal that 
she has personally endured. I look forward to her discussion on 
how Liu Xiaobo and other family members, especially his wife, 
have suffered under official abuses.
    Mr. Gershman, please proceed.

 STATEMENT OF CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT FOR 
                           DEMOCRACY

    Mr. Gershman. Thank you so much, Mr. Chairman, Senator 
Brown. Thank you so much for inviting me to testify today.
    I would like to take this opportunity to address, briefly, 
three issues: the dangerous instability of China's political 
system and its immense human costs; the importance of a 
peaceful democratic transition as the best way to ensure 
progress and stability in China, and finally, the recognition 
that Liu Xiaobo and Liu Xia and Charter 08 are part of a broad 
popular movement within China which represents the best hope 
for a democratic future.
    The recent scandals around Chongqing Party secretary Bo 
Xilai and his failed bid for power in the Party leadership 
transition provide a valuable glimpse into the way the Chinese 
Government is operating. We see how brutal struggles, 
unconstrained by formalized rules and due process, are still 
the norm for the Party from the top to the bottom. This 
vulnerability of the Party echoes throughout the political 
system. I guess the Chinese state is brittle and unstable. Many 
inside China worry the country is headed for a social 
explosion. According to the well-known Chinese scholar Yu 
Jianrong, for example, ``the government sees the expression of 
people's legitimate interest as a threat to the social order. 
Land rights of peasants, food safety for children, wages for 
workers, residency rights for rural migrants in the urban 
areas, and minority rights for Tibetans and Uyghurs, all are 
undermined by government repression.
    The law, meanwhile, provides little refuge. While there 
have been modest gains in the legal system, whatever gains were 
made are now backsliding. The blind activist, Chen Guangcheng, 
who we were together with, Mr. Chairman, as you remember, at 
the end of October here in Washington, whose brave escape from 
the security apparatus earlier this year highlights the level 
of repression, calls the Chinese system lawless and this 
lawlessness is at the root of the instability.
    The number of collective protests has been rising steadily 
from 9,700 in 1993 to 90,000 in 2006, to over 200,000 in 2011, 
an average of about 500 a day. In Tibet, the government 
controls are so tight that comparisons have been made to a war 
zone.
    To protest the lack of religious and political freedom, 95 
Tibetans, 82 men and 13 women, have self-immolated since 2009. 
Constant repression of Uyghur culture and a lack of opportunity 
because of open discrimination of Uyghurs has resulted in deep 
resentment and a hardening of ethnic tension.
    Across China, demolitions and land appropriations deprive 
many of their hard-earned property and livelihood. Increasing 
desperation and the inability of the current system to provide 
long-term guarantees of rights and liberties lead to more 
protests and the vicious cycle spirals downward.
    Even under these bleak conditions, a social movement has 
arisen in which ordinary people seek to use the law on behalf 
of China's people. It takes corrupt officials, police, and the 
government to court for malfeasance and injustice. It organizes 
peaceful demonstrations to educate other citizens and rally 
support for their cause. It posts messages about rights 
violations on the Internet when the press turns them away.
    They call the secret police on behalf of human rights 
defenders and show up at police stations and black jails for 
advocacy and rescue. Chen Guangcheng's moral resistance and 
ultimate escape were the focus of such a human rights campaign, 
one of the largest since the founding of the People's Republic.
    The voices are growing. Tens of millions of Internet users 
gather and gawk online at stories of corruption and human 
rights violations to show support for their fellow citizens and 
create pressure for more accountability. Again, the human costs 
are high. These human rights defenders receive no help from the 
establishment, intellectuals, or lawyers from their localities.
    The courts either refuse to take their cases; they are 
defenseless against police violation; or they are often 
illegally detained, tortured, and sentenced to a labor camp 
without anyone hearing about it. Human rights lawyers and 
public intellectuals join them at considerable risk to 
themselves to address China's lawlessness.
    The writings of Nobel laureate Liu Xiaobo and Charter 08 
should be seen in this context. Liu has tirelessly pushed for 
political change by asking the state to live up to its own laws 
and obligations. The charter calls for gradual political 
reform, the rule of law, the separation of powers, and a multi-
Party system. Its signatories, over 10,000, are a diverse body 
comprising both prominent figures within the system and 
ordinary people at the grassroots, and they are united behind a 
common vision of a democratic China.
    It is part and parcel of the broad bottom-up movement for 
popular constitutionalism and gradual change. To date, the 
Chinese Government has chosen a path different from the one 
envisioned by these civil society activists. To keep widespread 
dissatisfaction at bay, the government encourages nationalism 
and stokes popular anger in order to bolster its legitimacy.
    In September, the government encouraged a wave of anti-
Japanese demonstrations, which turned violent in many places. 
It correctly gauges that nationalism serves as a powerful 
instrument in impeding public demand for democratic change.
    Simultaneously, the Party's proactive repression has kept 
civil society fragmented, fragile, beset by doubt, and still 
largely unable to mount meaningful monitoring of the 
government's performance and adherence to both domestic and 
international obligations.
    Such a strategy, however, may open China to great danger 
with grave implications for the entire world. The instability 
of the current system may eventually end in large-scale and 
bloody repression or, equally disastrously, in violent 
upheaval. China may decide to step up an aggressive stance 
abroad to consolidate support and distract criticism by 
fomenting nationalist antagonism.
    By so doing it can inadvertently provoke conflict. Given 
China's geopolitical significance and the vital role it plays 
in the international economic order, all these outcomes would 
create disruptions that travel far beyond the region. Most 
importantly, the human costs for the Chinese people would be 
unthinkable.
    We have reason to believe then that civil society's fight 
to open up the political system to the Chinese people 
represents the only desirable alternative to the current status 
quo. The movement can help bridge the vast ideological income 
and social divisions splintering China through political 
liberalization, the protection of basic rights, and the pursuit 
of social justice.
    Congress and the administration, as well as the American 
public, have a golden opportunity to act in a bipartisan manner 
in calling for Liu Xiaobo's release, not only as a matter of 
justice and human rights, but also to enable him to take part 
in civil debate on the challenge of the democratic 
transformation of China.
    Let us hope that the new Chinese leadership will recognize 
this historic opportunity. In doing so, they would avert the 
profound crisis facing their country and open up the prospects 
for China, whose power and prosperity would be strengthened 
through democracy.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you very much, Mr. Gershman, for your 
testimony and your leadership.
    Dr. Yang?
    [The prepared statement of Mr. Gershman appears in the 
appendix.]

  STATEMENT OF YANG JIANLI, PRESIDENT, INITIATIVES FOR CHINA/
                    CITIZEN POWER FOR CHINA

    Mr. Yang. Thank you, Mr. Chairman and Senator Brown. Thank 
you for hosting this important hearing. Liu Xiaobo and his 
wife's plight is well known. I will not repeat the facts about 
it today.
    Instead, I want to focus on Liu Xiaobo's significance for 
democracy in China. Liu Xiaobo's Nobel honor reflects the 
international recognition of the Chinese democracy movement as 
represented by him. He has become the symbol of democracy in 
China. And simply because of such symbolism, today, his 
continued imprisonment has become a footnote to the vow made by 
Hu Jintao in his political report at a recent Party's 18th 
Congress. He stated that China's leadership would never take 
``the evil road of changing flags and banners,'' code for 
abandoning one-Party rule. This pledge dispelled any doubts 
about the Party's resolve to keep its political monopoly.
    But we must remember that the Chinese Communist Party [CCP] 
does not have the only say about China's future. Liu Xiaobo 
represents another force that also will help shape the future 
of China, pushing China to take an alternative road, the ``evil 
road,'' in Hu Jintao's words. This force is becoming 
increasingly viable.
    The most important sign of this movement is the recent 
intellectual awakening, evidenced by the return of the 
democracy debate, which has occupied a central place in the 
public discourse around China's leadership change. More and 
more intellectuals, who were generally co-opted by the regime 
not long after the Tiananmen massacre and acted as its 
defenders for many years, have come to realize and acknowledge 
Liu Xiaobo's contributions, ideas, and beliefs, which are 
embodied in Charter 08. Recognition by intellectuals that the 
status quo is unsustainable is always the first, and vital, 
step toward changing it.
    Two other most important factors helping move toward 
democratic change in an autocratic country are coming together 
in China, namely a robust plurality of disaffected citizens and 
a split in the leadership.
    Let me elaborate.
    Since the Tiananmen massacre, corruption has become one of 
the CCP's important strategies to survive because no Party 
officials at any level would be loyal to the regime if they 
were not given the privilege to corrupt. Such a predatory 
regime has caused unprecedented infringement of the basic 
rights of the ordinary people, resulting in increasing frequent 
protests.
    To keep these self-motivated protests from becoming a 
conscious movement by demanding an overall change, the Chinese 
Government has built a monstrous stability-sustaining system. 
This gigantic system treats every citizen as a potential enemy, 
and it has successfully made them enemies--dissidents, 
independent intellectuals, land-lease peasants, victims of 
forced demolitions and eviction, victims of forced abortion, 
veterans, migrant workers, Tibetans, Uyghurs, Mongolians, 
Christians, and Falun Gong practitioners, you name it.
    Perhaps the only achievement in China's political system in 
the past 30 years is the establishment of the ``2-term, 10-
year, 1-generation'' term limit system. Many observers 
predicted that such a system would ensure long-term stability 
for the CCP regime, wishfully believing that this system helped 
the CCP find a way out of the pit of power discontinuity that 
has plagued all dictatorships in history. The Bolshevik-like 
event, however, mercifully burst that bubble. People within the 
Party have begun to challenge this power succession system. The 
cracks are only widening.
    As nongovernmental forces grow and civil protests escalate, 
the struggle for power among different factions within the 
regime will become more pronounced. Once external pressures 
reach critical mass, rival affections within the regime will 
have no choice but to take the voices of citizens seriously and 
seek their support to survive.
    That said, I want to emphasize that we need an overall, 
viable pro-democracy movement to force the dictatorship to 
crack open. A long-term resilient movement will reach critical 
mass when idealists like Liu Xiaobo join forces with the self-
motivated public or the disaffected with the status quo.
    A milestone to meet that objective would be the formation 
of a group of civil leaders able to represent the general 
public and to at least partially disrupt the current political 
order--a group that would catch attention and support of the 
international community and carry out and call for effective 
negotiations with the government.
    What happened in Guangdong, Wukan Village a year ago is a 
good example. Liu Xiaobo, as a widely accepted leader both at 
home and abroad, will surely play a unique role in forming such 
a group. Therefore, working toward his freedom is vital for 
democratic change in China. I am particularly encouraged by the 
strong support of Liu Xiaobo and Charter 08 from world leaders 
like Senator Brown and Congressman Smith and other world human 
rights leaders and activists.
    Aung San Suu Kyi was released from house arrest in November 
2010. For the first time, there is hope for reform in Burma. In 
seeking Liu Xiaobo's release, we hope and struggle for the same 
in China.
    Thank you.
    Chairman Smith. Dr. Yang, thank you very much for your 
testimony and for your insights.
    Mr. Griffith?
    [The prepared statement of Mr. Yang appears in the 
appendix.]

  STATEMENT OF PATRICK GRIFFITH, PROGRAM ATTORNEY, FREEDOM NOW

    Mr. Griffith. Good morning, Mr. Chairman and Mr. 
Cochairman, and thank you for the opportunity to join you here 
today. As an activist, this Commission is an essential source 
for information about human rights violations in China, and I 
want to begin by thanking both the Commissioners and their 
staff for their unwavering support for prisoners of conscience.
    As an attorney with Freedom Now and international pro bono 
counsel to the Lius, my testimony today will focus primarily on 
why their detention is a flagrant violation of China's 
obligations under international law. I am also going to briefly 
explain, in our view, what steps the United States can take to 
lead a growing international movement to free the Lius.
    The circumstances of Dr. Liu's detention are widely known 
and largely undisputed, even by the Chinese Government itself. 
At the time of his arrest in 2008, as was noted, Dr. Liu was 
leading an initiative called Charter 08, which is a political 
manifesto that calls for peaceful democratic reform and respect 
for human rights.
    Dr. Liu was detained in an unknown location for six months 
without charge or any legal process whatsoever, and was 
ultimately accused of inciting subversion. The prosecution's 
indictment, like the court's judgment sentencing him to 11 
years in prison, specifically relied on his participation in 
the production of Charter 08 as evidence of his guilt.
    Shortly after Dr. Liu was announced as the 2010 Nobel Peace 
Prize laureate, the government placed his wife, Liu Xia, under 
house arrest. Two years later, she remains cut off from the 
outside world without even the pretense of legal process.
    In a rare interview, she recently confirmed that she has 
been under house arrest, unable to communicate with the outside 
world except for brief weekly trips to buy groceries and visit 
family. Frequently confined to bed due to back pain, she 
described this continued detention as ``painfully surreal.''
    The prosecution of Dr. Liu is a clear violation of 
international law which specifically protects the right to 
peaceful freedom of expression. Such international protections 
apply regardless of whether Chinese domestic law punishes 
peaceful political expression of subversion, and the 
government's constant refrain that Dr. Liu's imprisonment is 
the result of a criminal prosecution is simply irrelevant. 
Further, as internationally protected rights, their violation 
is the proper concern of the international community and not 
merely an issue of domestic judicial sovereignty.
    Liu Xia's case is even more appalling. Despite a mountain 
of evidence to the contrary, the Chinese Government has claimed 
repeatedly that no legal enforcement action has been taken 
against her. This claim is either a lie or an admission of 
guilt. Nothing under domestic or international law authorizes 
the indefinite detention of a person without any due process 
whatsoever for the mere crime of being married to a Nobel 
laureate.
    In response to petitions filed by Freedom Now on behalf of 
Dr. Liu and Liu Xia, the United Nations Working Group on 
Arbitrary Detention found their continued detention a violation 
of international law and called for their immediate release. 
Despite this finding by the United Nations, the situation for 
Dr. Liu and Liu Xia remains largely unchanged.
    However, recently an international movement to free the 
Lius has been gathering cohesion and momentum. Last week, the 
International Committee for Liu Xiaobo, a coalition of 6 Nobel 
Peace Prize laureates and 15 nongovernmental organizations, 
released a letter from 134 Nobel laureates calling for the 
immediate and unconditional release of the Lius.
    The letter was signed by laureates from across all six 
Nobel disciplines, not just Peace prize winners. A 
corresponding petition online has gathered over 300,000 
signatures from at least 82 countries.
    In light of this growing movement, we believe that there 
are three ways that the United States can redouble its efforts 
and change tactics in support of the Lius. First, as a Nobel 
Peace Prize laureate himself, we believe President Obama has a 
unique opportunity to take a leading role in this growing 
citizens' movement. Initiatives such as the laureate letter 
provide Mr. Obama with a ready-made platform to highlight the 
continued detention of the Lius.
    While the President did call for Dr. Liu's release shortly 
after he was announced as the recipient of the 2010 Peace 
prize, he has not publicly reiterated that call nor personally 
called for Liu Xia's release. Without the President's continued 
public engagement, we fear that Beijing will receive the 
message that it can continue to detain Dr. Liu and Liu Xia 
without suffering any additional consequences.
    Second, the United States should consistently and publicly 
hold the Chinese Government accountable. Because the ultimate 
measure of success, from our perspective, is the Lius' freedom, 
this anniversary presents an opportune moment for the United 
States to reassess its approach.
    Practices such as beginning bilateral meetings, regardless 
of topic, by raising political prisoners would send a clear 
message that the Chinese Government's refusal to comply with 
international law is unacceptable.
    Finally, the United States should take a leading role in 
multilateral efforts to support the Liu's. For example, a 
letter from other G-8 countries highlighting the continued 
detention of the world's only imprisoned Nobel Peace Prize 
laureate could remind the incoming Chinese leadership that if 
it wants to join the community of nations as a full partner, it 
must do more than merely talk about human rights and the rule 
of law.
    Admittedly, these are among the hardest cases in one of the 
most difficult countries, but the growing citizens' movement 
gives us reason to hope. While relations between the United 
States and China are necessarily complex, respect for 
fundamental human rights must remain at the center of that 
relationship and the continued detention of the Liu's is an 
important bellwether indicating that more must be done.
    Thank you for your time. I would welcome the opportunity to 
answer any questions.
    Chairman Smith. Mr. Griffith, thank you very much.
    We would like to now hear from Yu Jie. Mr. Yu? Could you 
put on your microphone, please?
    [The prepared statement of Mr. Griffith appears in the 
appendix.]

 STATEMENT OF YU JIE, INDEPENDENT AUTHOR AND ASSOCIATE OF LIU 
                             XIAOBO

    Mr. Yu. Thank you very much, Mr. Chairman. Thank you very 
much to the Congressional-Executive Commission on China for 
giving me this opportunity to speak to you here.
    For the last 10 years, I have been close friends with Mr. 
Liu Xiaobo. In January of this year I came to the United States 
and finished a memoir for Mr. Liu Xiaobo which covers over 500 
pages. This memoir has been published in Hong Kong in its 
Chinese version, and its English version will be published next 
year.
    As a close friend of Liu Xiaobo, I see his growth in four 
stages. The first stage is in the 1980s, when the intellectual 
atmosphere in China was relatively liberal. At that time Mr. 
Liu Xiaobo started from literary criticism and aesthetics to 
critics of Chinese traditional culture, Chinese intellectuals, 
and the political system.
    In the spring of 1989 while Liu was a visiting scholar in 
the United States, student protests began in Beijing. Liu was 
determined to return to China and dedicate himself to the 
students' movement, and that was a life-changing experience for 
him. After that, he was imprisoned and persecuted and he has 
been thrown into prison for six years in the last decade.
    Even during this very difficult condition, Liu Xiaobo 
continued his cause. He drafted and organized the signatories 
to a number of open letters addressing issues such as 
implementing democracy, protecting human rights, and 
overturning the official verdict on the Tiananmen massacre. 
However, because of the lack of the Internet era at that time, 
this movement was still limited within a small intellectual 
circle in China.
    Throughout the 1990s we see the broad and wide use of the 
Internet in China and that allowed Liu Xiaobo's voice to be 
heard by the Chinese public. At the same time, he was 
diligently writing articles while going outside to participate 
in democratic movements.
    Two of the major activities that he participated in during 
that period were, one, Liu Xiaobo served two consecutive terms 
as the president of the Independent Chinese PEN Center. You 
know that the freedom of association is written in the Chinese 
Constitution, however, in reality it does not exist.
    Liu overcame the authorities' restrictions on independent 
organizations and made the Chinese PEN center the first 
independent organization that protects freedom of expression 
and promotes Chinese literature in mainland China.
    The second main activity that Liu was involved in was 
drafting and organizing the signatories for Charter 08. Of the 
over 300 signatories of Charter 08, one-third of them were 
introduced by Liu Xiaobo to this cause. By doing that, he has 
become a leader in the Chinese civil society movement.
    In 2008, Liu Xiaobo was arrested. In 2010, he was awarded 
the Nobel prize. The honor of the Nobel Peace Prize had 
elevated Liu Xiaobo to a new status. Although Liu's 
contributions cannot be measured solely through his prize, this 
honor nevertheless places him directly at the heart of any 
future sociopolitical transitions in China.
    The Chinese Communist Party's totalitarianism has created 
severe social crisis. No matter if the regime admits it or not, 
it is inevitable for China to have democratic reform. Liu 
Xiaobo, an intellectual who has fought for China's human rights 
for over 20 years since Tiananmen as an advocate for beliefs 
such as non-violence and non-enemy and as the only Nobel 
laureate that is still living in China, will be sure to play an 
essential role in this transformation.
    China's democratization will not only relieve 1.3 billion 
Chinese people from a totalitarian regime and ensure legal 
protection for basic human rights, it will also generate a new 
round of global democratization and will speed up the 
transformation for authoritarian countries like North Korea, 
Iran, and Cuba. In this regard, the impact Liu Xiaobo has on 
the progress of human society should be no less than Mandela of 
South Africa, Havel of the Czech Republic, Kim Tajume of South 
Korea, and Aung San Suu Kyi of Myanmar.
    Similar to Mandela, Havel, Kim Tajume, and Aung San Suu 
Kyi, Liu Xiaobo should have the support from both his 
countrymen and people of the rest of the world. So here I would 
like to call for the leadership of the United States, 
especially the forward-looking leadership such as President 
Obama, to support Liu Xiaobo's cause.
    Thank you.
    Chairman Smith. Thank you very much, Mr. Yu.
    Liu Min?
    [The prepared statement of Mr. Yu appears in the appendix.]

STATEMENT OF LIU MIN, WIFE OF YU JIE; FRIEND OF LIU XIAOBO AND 
                            LIU XIA

    Ms. Liu. Good morning, ladies and gentlemen. My name is Liu 
Min. My husband Yu Jie and I met Liu Xiaobo and his wife in 
1999. Shortly after, we became very close friends. Liu Xiaobo 
and Liu Xia began their romantic relationship in the early 
1990s. After the Tiananmen Square massacre in 1989, Liu Xiaobo 
was imprisoned for the first time.
    After his release, Liu Xiaobo and Liu Xia fell deeply in 
love. During this time, Liu Xiaobo was imprisoned for a second 
and then a third time. In the period when Liu Xiaobo was sent 
to Dalian to be reeducated through labor, Liu Xia went to see 
him every month from Beijing, traveling back and forth 38 times 
over three years. The trip between Beijing and Dalian was 1,250 
miles.
    Then after fighting for time again, they had a wedding in 
prison. Their only celebration was a simple lunch in the labor 
camp cafeteria. In these three years, it was the only time they 
had eaten at the same table.
    The pressure faced by Liu Xia was even greater than that of 
Liu Xiaobo. She was originally a proud painter and photographer 
who kept her distance from politics. Simply by being Liu 
Xiaobo's wife, she was included on the list of enemies of the 
state.
    Permanently unable to live a normal person's life, she 
developed eye problems, endocrine disorders, insomnia, skin 
illnesses, and severe depression. She had to take large doses 
of sleeping pills to fall asleep every night.
    After Liu Xiaobo was arrested, a friend asked her about how 
she was sleeping. She said, ``Now that Liu Xiaobo is gone I can 
actually sleep more peacefully. A shoe had fallen down from the 
ceiling long ago. For many years, I was like the person waiting 
for the other shoe to drop. Now the shoe has finally dropped 
and I can finally feel at peace.
    Liu Xia and Liu Xiaobo have been married for many years and 
they have never had children. Liu Xia said, ``A long time ago 
we agreed not to have children. Having a father in prison in 
any case is the cruelest thing to a boy or a girl.''
    In December 2008, Liu Xiaobo was arrested. On Christmas 
2009, Liu Xiaobo was sentenced to 11 years in prison and was 
later sent to the prison in Jinzhou to serve his term. If Liu 
Xiaobo is to serve his term in full, Liu Xia will have traveled 
back and forth between Beijing and Jinzhou more than 100 times. 
The trip between Beijing and Jinzhou is about 600 miles. In 
total, her trek will have been more than 8,000 miles.
    In January 2012, our family of three finally escaped China 
and came to America. Liu Xiaobo and Liu Xia's predicaments were 
on our minds constantly, especially Liu Xia being under house 
arrest and isolated from the world for over two years. We worry 
about her physical and mental state.
    In my own personal experience when my husband and I were 
put under house arrest for two months, we were together but 
alive. All of our means of contact were cut off where we could 
not take one step out of our own door, where we could not see a 
single other person on the outside and drove us nearly insane. 
Liu Xia is alone. Under house arrest for more than two years, 
that kind of suffering is unbearable. I hope that the American 
Government can help her. I hope you can help her.
    Thank you.
    [The prepared statement of Ms. Liu appears in the 
appendix.]
    Chairman Smith. Thank you so much for your testimony.
    Thank you all for bearing witness on behalf of a man, Liu 
Xiaobo, and an equally courageous woman, his wife, Liu Xia, 
that cries out for even stronger voices being raised in the 
West, and really everywhere else in the world. I often am 
concerned when it comes to human rights that some people get 
compassion fatigue or fatigue of some kind, and while they 
raise their voice initially in the beginning, the dictatorship, 
wherever it may be--and that includes the Beijing 
dictatorship--they believe that if they just wait it out, that 
the concern, the anger, the outrage will just simply dissipate 
and go away.
    At least three of you have made an appeal to President 
Obama to raise the issue. Mr. Griffith, you pointed out that he 
raised it initially. I would note parenthetically that when Hu 
Jintao came to town I put together a very strong group of 
dissidents who asked the President to raise the issue boldly, 
visibly, overtly in a public setting, not just perhaps behind 
closed doors, and to raise the case of a fellow Nobel Peace 
Prize winner, Liu Xiaobo, and to do so in a way that the world 
would be energized and know that the United States of America 
cares about this man, and everyone else in China who is 
suffering under the cruelty of this dictatorship.
    Sadly, he did not. It was so bad that the Washington Post, 
in an editorial after the joint press conference, wrote, 
``President Obama Defends Hu Jintao on Rights.'' When asked by 
the Associated Press reporter about human rights, Hu Jintao had 
some trouble understanding what the question was, some 
technical problem which was nonsense.
    The President said they have a different culture and they 
have a different political system, which I thought was an 
insult, frankly, to the Chinese people, including some of the 
leaders and people who have suffered at our witness table 
themselves, and to everyone else, like Chen Guangcheng and Gao 
Zhisheng and so many others, and everyone else who was at 
Tiananmen Square.
    The culture fully understands that everyone deserves 
fundamental human rights, and Dr. Yang, you certainly know it 
because you paid the price as well. So my hope springs eternal 
that the President will find it within his heart to speak out 
publicly on behalf of Liu Xiaobo. I waited this week to hear 
something from the President. Human Rights Day came and passed.
    Through your requests again today, we will convey that to 
the White House in the hope that he will find the courage to 
speak out to Beijing, and to do so in a way that is 
unmistakable not just to Beijing and to the new president 
there, unelected as he is, but also to the world. So if any of 
you would like to speak to that issue--Patrick, you did 
certainly raise it in your comments--because I have been 
disappointed.
    I thought, as did everyone else, if not us, who? We can 
have hearings. Congress, Speaker Boehner, Nancy Pelosi. People 
could raise these issues. But there is only one President of 
the United States. He is the leader of the free world. When you 
have a Nobel Peace Prize winner who languishes and a wife who 
is treated so cruelly by a dictatorship, it seems to me that it 
is time to find our voice and that voice needs to be in the 
White House.
    Mr. Griffith?
    Mr. Griffith. Thank you, Chairman Smith. I would agree with 
that sentiment. I know that frequently there is a discussion, 
particularly among human rights activists, about whether it is 
best to be publicly critical or just privately critical, and 
what the appropriate combination of tactics is. I think that is 
a legitimate debate. But from our perspective, it has now been 
two years and our ultimate goal is the release of Liu Xiaobo 
and Liu Xia.
    So far, what has been done has unfortunately not been 
sufficient to bring their release about, and I think that in 
light of that, in light of the two-year anniversary, from our 
perspective, in light of a closing window of a time where we 
have someone who is both a Nobel Peace Prize laureate and the 
President of the United States, I think it is a great 
opportunity now to publicly confront the Chinese authorities 
about their continued detention and to do so in a way that 
forces a real dialogue, instead of two ships passing in the 
night or two sequential monologues, to confront them about the 
facts of the case, to confront them about the continued 
detention of Liu Xia.
    When the government says she is not under detention, then a 
visit by the Ambassador, perhaps, or a visit by somebody from 
the embassy perhaps before that meeting trying to meet with her 
so that the response can be forceful and can say, ``No, you are 
not telling us the truth.''
    We believe that that kind of increase in tactics would 
hopefully bring about a release. We know that Dr. Yang--for 
example, his case was repeatedly raised at a high level and 
that is ultimately what it took to obtain his freedom.
    Chairman Smith. Would anyone else like to address that?
    [No response].
    Chairman Smith. Let me ask, you, Mr. Gershman, talked about 
the Chinese Government. ``Brittle and unstable,'' I think, were 
the words you used. One of the most under-appreciated in terms 
of its enormous impact that it is having and will have on China 
is the one-child-per-couple policy. Perhaps any one of our 
panelists might want to speak to it.
    But the Chinese Government prides itself on the idea of 
stability, and perhaps the most destabilizing current event 
that is heading toward a catastrophic implosion of Chinese 
society is the one-child-per-couple policy, particularly the 
missing girls. There is an estimation of perhaps as many as 100 
million girls that are missing. Nobody knows for sure.
    But the fact that Chinese society has been so altered by 
the coercive population control, the forced abortion. As you 
mentioned, Dr. Yang, in your statement when you mentioned a 
litany of abuses occurring, forced abortion is among the most 
egregious. It certainly has malaffected virtually every woman 
in China, witness the fact that they have 500 suicides per day 
of females in the People's Republic of China.
    There is even a book. I recently, a little over a year ago, 
chaired a hearing. We heard from a woman who wrote the book, 
``Bare Branches,'' and talked about how destabilizing forced 
abortion is. Not only is it inhumane and equivalent to what the 
Nazis did against Polish women during World War II with forced 
abortion--so the outrage from a human rights and women's rights 
point of view cannot be overstated, as well as the missing 
children who are destroyed, and missing girls in particular.
    But the destabilizing effect it is going to have, and this 
author pointed out that it could ultimately lead to war and the 
projection of power. It will lead to gangs, it will lead to all 
kinds of destabilization. You mentioned, Mr. Gershman, about 
how there are 500 protests per day of some sort, so there is 
already a fomenting of unhappiness that is now matriculating 
into an ability to go out on the streets and actually show it 
with less fear, although there is fear of what the secret 
police might do to them.
    So if you could, Patrick, or maybe Dr. Yang, speak to that 
issue. It seems to me that it is only a matter of time before 
there is an implosion economically, as well as societally, 
because of the one-child-per-couple policy.
    Mr. Gershman. Well, Mr. Chairman, first of all, you 
mentioned human rights fatigue. I really want to pay tribute to 
you. I mean, there has just been nobody--as I look around this 
room at Ben Gilman, Henry Hyde, Dante Fascell, and Tom Lantos, 
I mean, you belong in that company, you really do. You have 
done really heroic work and I want to congratulate you for it.
    As I look at the situation, it has changed fundamentally in 
China. Liu Xiaobo has written about that. One of his really 
most important essays for which he was imprisoned was called 
``Changing the Regime by Changing Society.'' He talked about 
the way the pillars of totalitarianism in China, the ideology, 
the economy, the organizational control, even the Party 
political control, either have broken down completely or are in 
the process of breaking down.
    The one point he emphasized most strongly, which is 
something you just said, is the issue of fear. There was a time 
when, if people protested, they were isolated and ostracized. 
``Today,'' he said in that essay, ``such people become the 
civic conscience of society and heroes of truth.'' So it has 
turned this issue on its head. There is no stopping this. Yes, 
Mr. Chairman, I think the President and others need to speak 
out much, much more strongly.
    China, because it is such a big country, gets off scot-free 
on a whole host of issues. You have pointed to some of the most 
critical, but there are many other issues that we have not even 
spoken about today and it gets off from this criticism.
    But I think our leadership, the leadership of other 
countries, have to realize that China is indeed unstable. This 
is not just rhetoric at a congressional hearing. The numbers of 
protests, which have increased so dramatically, are increasing 
approximately 12 percent every year: less than 10,000 less than 
20 years ago, and we are now over 200,000 a year.
    There is profound discontent. The Internet has just 
revolutionized the situation where it has transformed the 
consciousness. We know from someone like Chen Guangcheng and 
his work that this is a grassroots movement. It is a movement 
that has now spread outside the major urban centers and exists 
throughout the country in the rural areas.
    China has to find a way to deal with this. Its fundamental 
flaw, Mr. Chairman, its fundamental flaw, is that it does not 
have real legitimacy as a government. Governments can't survive 
without legitimacy. It has never been elected. It is either 
going to have to make this transition or the world is in very 
serious trouble.
    I think that it is extremely important that you keep the 
issue at the center, that we quote from Liu Xiaobo, his essays, 
at every opportunity, that we educate about what he said, 
because his message really represents the hope for China's 
future.
    I think everyone here wants to see China have a strong, 
healthy, and successful future, but the only way it is going to 
do that is if it addresses the kinds of issues that Liu Xiaobo 
has raised, especially having to do with reconciliation, 
especially having to do with respect for individual human 
rights.
    Chairman Smith. Dr. Yang? Thank you.
    Mr. Yang. It usually takes four factors to be present at 
the same time to change a country from an autocratic country to 
a democratic one: (1) the robust, general disaffection from 
people; (2) split in the leadership in the autocratic regime; 
(3) viable opposition, viable democracy movement; and (4) 
international support.
    Now, looking at what is happening in China, as I said in my 
opening remarks, the intellectuals are weakening, evidenced by 
the return of democracy debate around China's leadership 
change. The intellectuals' renewed demand for democracy is, at 
least in part, based on their understanding of the reality of 
China's state crony capitalism. This state crony capitalism has 
spanned the long period of economic growth, which has become 
nearly the only one source of legitimacy for CCP's rule in 
China.
    However, such an economic system has extracted incalculable 
costs from its people by tolerating human rights abuses, 
environmental deterioration, and morality collapse. That system 
has come almost to a dead end. We all know from the news that 
the Chinese economy is taking a downturn. The slowing economy 
will lay bare already-existing conflict between the people and 
the government.
    Regarding viable opposition, I mentioned in my opening 
remarks that Liu Xiaobo will play an important role in 
integrating the idealists such as himself with the self-
motivated protests on a grassroots level to form that 
necessary, viable opposition in China. He will play a pivotal 
role in forming a group of leaders who are able to represent 
the people, who are able to disrupt the political order, who 
are able to call for international attention and support, and 
who are able to engage with the Chinese Government effectively, 
either through resistance or negotiations.
    As to the issue of international support, about which I 
have some doubt because I am able to speak from personal 
experience. In the past several years, I have been advocating 
for human rights for China within the international community 
and have been amazed by a well-trenched myth believed by world 
leaders and policymakers and scholars.
    This myth goes as follows--that because China will punish 
those taking a strong stance on human rights with its growing 
economic power, affecting their all-important trade relations 
with China, the human rights issue should take a backseat.
    But this myth is anything but tested. So I just want to 
repeat the questions I asked at last Thursday's hearing in the 
European Parliament: What are we afraid of? This is a myth. We 
have to test it. The questions we should ask are: What do you 
think China will do in response to a strong human rights 
stance? Do we really believe that China will quit trading with 
a country whose goods it needs because that country demands 
better treatment of its citizenry? There is no past evidence in 
our relationships with China to support this myth.
    How much will it affect your economy, the United States' 
economy for example, and are you willing or able to accept this 
outcome? How much will it affect China's economy and what does 
it mean to the political system? Will China be willing or able 
to accept the cost? So let us calculate how much we spend on 
the Iraq war, which toppled a dictator.
    If China really retaliates against this country with its 
economic power, how much are we willing to pay to topple 
China's dictatorship? We all know the only source of 
legitimacy, for this regime to continue is economic well-being.
    So I think that is the least thing that they would try to 
jeopardize, so I think some fear--Mr. Carl Gershman talked 
about fear that works in China, but fear also works in the 
international community. I found this to be self-imposed fear. 
We have to test this myth to break it. Thank you.
    Chairman Smith. Dr. Yang, I think your point is extremely 
well taken. The Chinese Government relies on an export 
strategy. Our balance of trade is approximately $300 billion in 
their favor. Where would Beijing find markets, the likes of 
which would be the United States, if we found our voice at 
every level, especially at the White House level, on human 
rights?
    We would see, at least on the margin if not even more than 
that, I believe, the release of prisoners, including Liu 
Xiaobo, if we took seriously our obligation and did not act out 
of fear, which has led to a muting of our concern. So your 
point, I think, was extremely well taken.
    Those who argue that our debt, I would just say for the 
record, $1 trillion out of $16 trillion worth of debt. The 
Chinese also need to rely on our continual solvency and well-
being for their own economist interests, not just from an 
export strategy. So it is such an ill-conceived form of fear, 
not based on reality.
    Frankly, it goes back to the early 1990s. Bill Clinton 
linked human rights with trade and I, as a Republican, 
applauded that Democrat in the White House robustly, with press 
conferences and statements on the House floor.
    Before the year was out, he delinked most-favored-nation 
status on May 26, 1994, late on a Friday afternoon. That sent a 
signal to Beijing that profits trump human rights. My hope is 
that we will finally, some day--hopefully soon--find our voice 
to say we do not even have to fear the economic negatives. That 
trading relationship will be robust no matter what.
    What we do fear is a dictatorship that grows, expands its 
bad form of governance and exports it to Africa and to other 
countries and forms alliances that are antithetical to 
democracy and human rights. So we do not act in our own 
interest, not to mention the Chinese leaders like the three of 
you who have done so much as China's best, and bravest, and 
brightest who are now abroad, speaking out on behalf of those 
left behind.
    So I think your point is extraordinarily well taken. It is 
a myth. I would concur with you on that. Rather than a 
backseat, I would say we often take a ``no seat'' when it comes 
to human rights. We are nowhere to be found. We are AWOL as a 
government, and we need to do more.
    Mr. Yu, you, in your testimony, really went into some 
wonderful length as to who Liu Xiaobo is as a man, his courage. 
You talked about his activism, that he refused to give up, to 
be discouraged, or even to feel a hint of anxiety about the 
increasingly marginalizing position that he had within society, 
even after being held in prison. How is Liu Xiaobo doing now? 
Do we have any good sense, any sense whatsoever how he is 
holding up under the strain, under this terrible oppression 
that he faces? I would ask Liu Min if you could speak to Liu 
Xia's well-being as well. We know of the most recent 
conversation she had with the AP reporters.
    I mean, Cochairman Brown and I were talking as this hearing 
got under way how in awe we are of those who suffer in prison, 
and their loved ones. Frankly, both he and I, and I would say 
that for most of us, do not know how we would react. If we were 
put under this iron fist policy of a dictatorship that can beat 
and torture at will, hoping someday to be free, sticking to 
your convictions, it is incredible. Dr. Yang, obviously you 
faced it personally when you were imprisoned. But if you could 
speak to Liu Xiaobo, how he is faring now, if we know.
    Mr. Yu. From the information that I obtained, I understand 
that Liu Xiaobo was not imposed with physical torture in 
prison. However, he was not given enough nutrition and since 
the prison is located in the northern part of China, the 
heating system is very bad so he is feeling extremely cold in 
that situation. So it is not very comfortable for him.
    His wife, Liu Xia, could visit him, could bring books to 
him. However, these books need to be very seriously inspected 
first. These books have to be only published within China. 
These books cannot be published in Hong Kong or elsewhere 
outside China. In terms of the category of books he is allowed 
to read, he is allowed to read fiction and poems. Anything that 
is related to political science is not allowed.
    Liu Xiaobo once said no matter how long he was put in 
prison he would not leave China. This has become a reason for 
what China is doing, a Chinese conspiracy that is going on now. 
The Chinese Government is now trying to detain Liu Xia and 
trying to impose pressure on her in order to make Liu Xiaobo 
give up. So I think what we can do right now is to try to get 
freedom for Liu Xia.
    In terms of what the United States can do in this cause, I 
call for President Obama to openly call for the freedom of Liu 
Xiaobo, and also I hope President Obama could sign his name on 
the joint signatories, along with the other 135 Nobel Peace 
Prize laureates. Also, I hope that the Ambassador to Beijing 
from the United States could have opportunities to visit Liu 
Xia. These are the things that we can do immediately.
    Liu Xiaobo has a very well-known writing which is called, 
``The Future of the Free China Lies in its Civil Society.'' 
This book tells us that when we are looking at the changes of 
China, this is the thing for both Chinese people and people of 
the world, we do not only look at the change in its high 
leadership level, we also look at the change in civil society, 
which includes the development of the Internet, the situation 
of the house churches, and the situation of the rights 
defenders lawyers.
    However, what we see recently is, after the 18th Chinese 
Congress, the Western media, the Western think tanks are all 
putting their focus on the leadership transition, pinning their 
hopes on the potential reforms that the new president, Xi 
Jinping, can bring about to the society. I think this is a 
repeated mistake that we saw 10 years ago when President Hu 
Jintao took office.
    So by saying this, I hope that the Western world, the 
Western media, could get themselves familiarized with the idea 
expressed by Liu Xiaobo that the hope lies in the Chinese civil 
society.
    Chairman Smith. Did you want to speak?
    Ms. Liu. No, thank you.
    Chairman Smith. Okay.
    Mr. Griffith, you mentioned in your testimony that the U.N. 
Working Group on Arbitrary Detention had found that Liu 
Xiaobo's detention was arbitrary under international law.
    What does that mean in terms of, what is the consequence 
for that? What has the U.N. Human Rights Council done, if 
anything? We know Manfred Nowak, some years ago--the Special 
Rapporteur on Torture--did an excellent expose of the systemic 
use of torture in China against prisoners. But the Human Rights 
Council is an institution that has at least the broad power to 
expose--not enforce much, but expose--abuse.
    What did the U.N. Arbitrary Detention Unit do in followup, 
and what about the Human Rights Council?
    Mr. Griffith. With respect to the Working Group on 
Arbitrary Detention, as a non-treaty body they do not have a 
binding effect, even technically binding effect, on China, 
unfortunately. They are best thought of, I think, as a body of 
independent experts. They speak, I think, with great authority, 
both on what China's obligations under international law are--
of course they are a signatory but not party to the 
International Covenant on Civil and Political Rights [ICCPR], 
unfortunately--but their opinion does, we believe, carry a 
great deal of weight and they do, in some respects, speak on 
behalf of the United Nations. Insofar as they do have that 
authority, it then becomes the job of the activists to enforce 
that opinion. Unfortunately, it is not self-enforcing, so it is 
then our job to hold it up and to use it to hold the Chinese 
Government accountable.
    With respect to the Human Rights Committee, unfortunately, 
because China is not a party to the ICCPR and therefore not a 
party to the optional protocol, the Human Rights Committee does 
not have jurisdiction to hear the individual case of Liu with 
respect to the human rights.
    Chairman Smith. But they do a periodic review.
    Mr. Griffith. My understanding is the Human Rights Council.
    Chairman Smith. That's what I meant. I said the council.
    Mr. Griffith. Oh, I apologize.
    Chairman Smith. Yes.
    Mr. Griffith. There are too many bodies. The Human Rights 
Council does the periodic review. My understanding is, they 
have looked at and discussed Liu Xiaobo's case in the context 
of that review and will be considering China once again coming 
up. I believe the submissions are due in just a few months, and 
they will certainly be receiving a submission from at least our 
organization, and I believe a number of others.
    Chairman Smith. Dr. Yang?
    Mr. Yang. When it comes to the EU--to the United Nations; I 
just came back from the EU--we should remember the fact that 
China is a member of the United Nations, a member of the Human 
Rights Council. China is a leading human rights violator. It 
has sat on that Council. So inevitably, the international human 
rights standards will become substandards based upon China's 
own actions toward its people.
    We have joined efforts with many rights groups from all 
past wars to stop China's bid to be reelected to the Human 
Rights Council in about a year. China's membership will expire 
at the end of this year because it has already served its full 
two terms and it has to wait for another year, for one year, to 
become eligible to be reelected. So we have a joint effort now 
to stop China from being reelected.
    Here, I call on the U.S. Congress to pass a resolution to 
direct the State Department to at least come up with 
conditional support of China's membership on the U.N. Human 
Rights Council. The condition can be that the United States 
should not support China's membership at the U.N. Human Rights 
Council, but only when China releases Liu Xiaobo and all of the 
political prisoners.
    I want to echo what Yu Jie just said about Liu Xiaobo's 
situation. I want to point out that usually the family members 
suffer more than the prisoners. The dissidents, to a certain 
degree, are prepared to be prisoners in China. We discussed 
this. Liu Xiaobo and I discussed this issue in 2007, not long 
after I was imprisoned. He literally said that he was feeling 
guilty about his family members, the torment they underwent, 
and that he had a very strong sense he would be detained again 
very soon. He expressed that regret and guilty feeling to me 
toward family members.
    So on the subject of the wife of Liu Xiaobo--Liu Xia's 
situation. Everybody knows how she is suffering. I just want to 
echo Patrick and Yu Jie's call. Actually, that has been our 
call for two months, for the world ambassadors and diplomats in 
China to make a visit with Liu Xia.
    Liu Xia is a normal citizen. The Chinese Government has 
never brought any charges against her. Legally, she is just a 
regular citizen. It is alright for a diplomat in Beijing to 
make such a request. I just want to repeat what we said in the 
petition calling for the ambassadors to visit Liu Xia.
    ``When history's pen writes about your time, represents 
your country in China, you will want its ink to clearly 
underline your having made the case for Dr. Liu's release and 
his wife's freedom. Rather than showing a stain of 
indifference, don't miss an opportunity to make this moral 
gesture. Place this visit on your calendar. Insist on necessary 
arrangements.''
    Thank you.
    Chairman Smith. Dr. Yang, thank you. That is something we 
will follow up as a Commission as well. It is a point very well 
taken.
    Coming to the conclusion, and I would ask if you have any 
final statement you would like to make, or comments or 
insights, but I would note, Mr. Griffith, that the Chinese 
Government counts on, I believe, naivete and the ability to 
manipulate U.S. media.
    You made an excellent point, I think, about how everyone is 
concerned about the transition and they are all caught up in 
this transition to the new president--unelected, again, but the 
new president--rather than missing the house churches, and all 
the other daily abominations committed by this dictatorship 
against very good people who just want to practice their faith 
or express themselves on the Internet, or do something that 
freedom-loving people can do in most other places of the world.
    But this naivete--I will never forget when top Chinese 
officials were making their way to the United States. Maybe a 
week, five days, four days before they arrived here there would 
be a buzz about how they were about to sign the International 
Covenant on Civil and Political Rights, that they were moving 
toward that signature. Of course it has not been ratified yet. 
But they milked that for years.
    Those who look askance when it comes to human rights in 
this country, including some of the most powerful interests, 
including a number of politicians, would cling to that and say, 
``See, they are about to sign the International Covenant on 
Civil and Political Rights, so cut them a break, you critics.''
    Meanwhile the people in the prisons, meanwhile the women 
subjected to the cruelty of forced abortion. Meanwhile, the 
religious practitioners of Falun Gong, and all the other 
believers, the Uyghurs, the Buddhists, the underground 
Christians, continue to be savaged by this dictatorship. It is 
amazing to me. I have been here 32 years as a Member of 
Congress and I've been working on China since I got here on 
human rights.
    Of course, it went to an accelerated mode post Tiananmen 
Square when we all realized that the lid was lifted as never 
before, that there were possibilities. But how naive, how 
naive. Maybe it is purposeful naivete, but it is nevertheless a 
naivete that enables, however unwittingly, the dictatorship and 
this cruelty. So thank you for bringing those points up.
    We will contact our Ambassador, ask that he visit the wife 
of Liu Xiaobo. And why hasn't he to date? But past does not 
have to be prologue; we will encourage him to go and do just 
that. Again, hope springs eternal that the President will find 
his voice on this as well and sign the letter, as was 
mentioned, Dr. Yang, of the Nobel laureates on behalf of Liu 
Xiaobo. He is a Nobel laureate. Sign the letter.
    So any final comments that any of our distinguished 
witnesses would like to make before we adjourn?
    Mr. Gershman. No. Again, Mr. Chairman, I just want to thank 
you for being a leader on this issue. It is just of 
extraordinary importance and you are really having an impact. 
Thank you.
    Chairman Smith. Thank you.
    Mr. Yang. I want to echo Mr. Carl Gershman to thank you. I 
first testified at a hearing hosted by you back in 1995 on 
Tiananmen Square. On that occasion, China's Defense Minister 
Chi Haotian was visiting here in Washington, DC.
    I do have a few comments. I think the world democracies 
have run into a collective action dilemma. Unilaterally dealing 
with China may not be as effective as a multilateral mechanism. 
So I urge the U.S. Government to take the lead in forming a 
multilateral approach of governments dealing with China's human 
rights crisis, the Tibetan crisis, and the political 
prisoners-- i.e., all of the human rights crises. I think that 
will work more effectively than unilaterally dealing with 
China.
    I believe that the Chinese Government is paying great 
attention to this hearing. So, I have a special message to Xi 
Jinping: Mr. Xi Jinping, since you are now just taking over the 
helm of Chinese leadership, you well may be spared the blame 
for the repressive policies adopted and implemented by your 
predecessors. But, if you wait too long to make important 
changes, all blame will rightly be placed upon you as well. I 
understand that implementing a systemic political change in 
China will be very complex, and I cannot expect anybody to 
finish it overnight, but one can begin with such small, simple 
things as returning freedom to Liu Xia.
    Thank you.
    Mr. Griffith. Thank you, Chairman Smith. The only thing 
that I would add is to reiterate your comment about human 
rights fatigue, particularly in high-profile cases like Liu 
Xiaobo's, and to thank you again. These hearings are essential 
from an activist perspective in continuing to garner attention 
about these cases and I would only thank you again for inviting 
me to speak today.
    Mr. Yu. Also, I want to thank you, Mr. Chairman, for giving 
this opportunity to attend this hearing. My final remarks are, 
although recently we have heard some kind of sentiment 
regarding nationalism in China where you hear some kind of 
opposition to Western ideas inside the country, but here I want 
to assure you that most Chinese people really like America, 
really like America's values. So if America wants to elevate 
its reputation in China it should persist in its values of 
human rights and freedom instead of putting business profits on 
top of everything.
    We recently heard Wal-Mart has established a Party 
secretary department in its office in Beijing. This would 
really damage the American image inside China an that is not a 
good idea. So I hope once again that the American leadership 
could keep its voice for human rights and let this idea spread 
even more. Thank you.
    Ms. Liu. No, thank you.
    Chairman Smith. Thank you.
    On that note, the hearing is adjourned. Thank you so much.
    [Whereupon, at 11:49 a.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Carl Gershman

                           december 12, 2012
    I want to thank Chairman Smith and Cochairman Brown for inviting me 
to testify today. I would like to take this opportunity to address 
briefly three issues: The dangerous instability of China's political 
system and its immense human costs; the importance of a peaceful 
democratic transition as the best way of ensuring stability; and 
finally, the recognition that Liu Xiaobo and Charter 08 are part of a 
broad popular movement within China which represents the best hope for 
democratic transition.
    The recent scandals around Chongqing Party Secretary Bo Xilai and 
his failed bid for power in the Party leadership transition provide a 
valuable glimpse into the way the Chinese government operates. We see 
how brutal struggles unconstrained by formalized rules and due process 
are still the norm for the Party, from top to bottom. And this 
vulnerability of the Party echoes throughout the political system. The 
Chinese state is brittle and unstable, and many inside China worry the 
country is headed for a social explosion. According to the well-known 
Chinese scholar Yu Jianrong, for example, the government sees the 
``expression of people's legitimate interests'' as a threat to the 
social order. Land rights for peasants, food safety for children, wages 
for workers, residency rights for rural migrants in the urban area, and 
minority rights for Tibetans or Uyghurs--all are undermined by 
government repression. The law, meanwhile, provides little refuge. What 
modest gains the legal system had made have seen a back-slide. The 
blind activist Chen Guangcheng, whose brave escape from the security 
apparatus early this year highlights the level of repression, calls the 
Chinese system ``lawless.''
    Lured by extraordinary profiteering opportunities, the Party 
bureaucracy has become increasingly predatory. Consequently, the number 
of collective protests has been rising steadily: from 9,700 in 1993, to 
90,000 in 2006, to 180,000 in 2010, to over 200,000 in 2011, an average 
of about 500 a day. As the government ramps up its security budget to 
``maintain stability,'' human costs mount.
    In Tibet, government controls are so tight that comparisons have 
been made to a war zone. To protest their lack of religious and 
political freedom, 95 Tibetans, 82 men and 13 women, have self-
immolated since 2009. Constant repression of Uyghur culture and a lack 
of opportunity because of open discrimination of Uyghurs have resulted 
in deep resentment and hardening ethnic tension. A level of government 
control unlike anywhere else in China has become the norm in Xinjiang, 
with forced disappearances of Uyghurs after the June 2009 unrest and 
long prison terms for Uyghur journalists and bloggers providing a 
narrative at odds with the official one.
    Across China, demolitions and land appropriations deprive many of 
hard-earned property and livelihood. Chinese economist Wu Jinglian 
estimates that the government has deprived farmers of $500 billion in 
property value during the drive for development. News and photos of 
people self-immolating in protest have become a staple of social media. 
Increasing desperation and the inability of the current system to 
provide long-term guarantees of rights and liberties lead to more 
protests, and the vicious cycle spirals downward.
     Even under these bleak conditions, a social movement has arisen in 
which ordinary people seek to use the law on behalf of China's people. 
It takes corrupt officials, police and the government to court for 
malfeasance and injustice. It organizes peaceful demonstrations to 
educate other citizens and rallies support for their cause. It posts 
messages about rights violations on the Internet when the press turns 
them away. Individuals associated with the movement either run as 
independent candidates or work as campaign volunteers in sham local 
elections, trying to lend the process legitimacy. They call the secret 
police on behalf of human rights defenders, and show up at police 
stations and black jails for advocacy and rescue. Chen Guangcheng's 
moral resistance and ultimate escape were the focus of such a human 
rights campaign--one of the largest since the founding of the People's 
Republic. And their voices are growing. Tens of millions of Internet 
users ``gather and gawk'' online at stories of corruption and human 
rights violations to show support for their fellow citizens and create 
pressure for more accountability.
    Again, the human costs are high. These human rights defenders 
receive no help from establishment intellectuals or lawyers from their 
localities. The courts either refuse to take their cases or put on mock 
trials. They are defenseless against police violence. They are often 
illegally detained, tortured and sentenced to labor camp without anyone 
hearing about it. Human rights lawyers and public intellectuals join 
them, at considerable risk to themselves, to address China's 
lawlessness.
    The writings of Nobel Peace laureate Liu Xiaobo and Charter 08 
should be seen in this context. Liu has tirelessly pushed for political 
change by asking the state to live up to its own laws and obligations. 
The Charter calls for gradual political reforms: rule of law, the 
separation of powers, and a multi-party system. Its signatories, a 
diverse body comprising both prominent figures within the system and 
ordinary people at the grassroots, are united behind its common vision 
of a democratic China. It is part and parcel of the broad bottom-up 
movement for popular constitutionalism and gradual change. As we have 
seen in the success stories of South Korea and Taiwan, such social 
movements are among the best guarantors of peaceful transition to a 
robust democracy.
    To date, the Chinese government has chosen a path different from 
the one envisioned by civil society. To keep widespread dissatisfaction 
at bay, the government encourages nationalism and stokes popular anger 
in order to bolster its legitimacy. In September, the government 
encouraged a wave of anti-Japanese demonstrations, which turned violent 
in many places. It correctly gauges that nationalism serves as a 
powerful instrument in impeding public demand for democratic change. 
Simultaneously, the party's proactive repression has kept civil society 
fragmented, fragile, beset by doubt, and still largely unable to mount 
meaningful monitoring of the government's performance and adherence to 
both domestic and international obligations.
    Such a strategy however, may open China up to great danger, with 
grave implications for the entire world. The instability of the current 
system may eventually end in large-scale and bloody repression or, 
equally disastrously, in violent upheaval. China may decide to step up 
an aggressive stance abroad to consolidate support and distract 
criticism by fomenting nationalist antagonism. By so doing, it could 
inadvertently provoke conflict. Given China's geopolitical significance 
and the vital role it plays in the international economic order, all 
these outcomes would create disruptions that travel far beyond the 
region. Most importantly, the human costs for the Chinese people would 
be unthinkable.
    We have reason to believe, then, that civil society's fight to open 
up the political system to the Chinese people represents the only 
desirable alternative to the status quo. The movement can help bridge 
the vast ideological, income, and social divisions splintering China 
through political liberalization, the protection of basic rights, and 
the pursuit of social justice. Congress and the Administration, as well 
as the American public, have a golden opportunity to act in a 
bipartisan manner in calling for Liu Xiaobo's release, not only as a 
matter of justice and human rights, but also to enable him to take part 
in civic debate on the fraught challenge of democratic transformation 
of China.
    Let us hope that the new Chinese leadership will recognize this 
historic opportunity. In doing so, they would avert the profound crisis 
facing their country, and open up prospects of a free China, whose 
power and prosperity would be strengthened through democracy.
                                 ______
                                 

                   Prepared Statement of Yang Jianli

                           december 12, 2012
    It is a great honor for me to speak about the significance of Liu 
Xiaobo in a democratic change in China. I want to begin by asking this 
question: Why is China, a seemingly increasingly assertive world power, 
afraid of a single man like Liu Xiaobo? Why is it afraid of a moderate 
document like Charter 08, a manifesto authored by Liu Xiaobo and his 
colleagues in China demanding for political reform?
    The answer can only be that the rulers of China understand just how 
unjust, therefore weak, their system is and how significant Liu Xiaobo 
is for a democratic change.
    Liu Xiaobo and his colleagues recognize there are two Chinas. They 
have tried to bring together these two severely separated Chinas and 
construct a society built upon universal values of public political 
life.
    By ``two China,'' I am not trying to distinguish ``mainland China'' 
from ``Taiwan.'' Geographically there is only one entity of mainland 
China, but politically, economically, sociologically, and even 
sentimentally, it has largely broken into two societies.
    Over the past 20 some years after Tiananmen Square, the CCP regime 
has established a two China structure and one of the two Chinas, which 
I call China, Inc. is formed by

          1. Red Capitalists
          2. Marriage between Power and Capital
          3. Shares open to domestic and foreign capitalists
          4. Shares free to intellectuals

    Today, China Inc. is dazzling the entire world with its wealth, 
might and glory. It dominates the public discourse that outside 
observers believe that it represents China--the whole of China.
    The truth is there is another society named China, a society 
constituted of over a billion Chinese who are virtually slave-laborers 
working for China, Inc. I call this second China the under China.
    How do these two Chinas differ?

          1. Unprecedented wealth gap between the Chinas.
          2. Citizens of the under China are unable to enjoy basic 
        benefits or constitutionally afforded civil and political 
        rights.
          3. The elite monopolize over power, capital, and information.
          4. The two Chinas no longer speak a common political 
        language.
          5. The two Chinas have no common political life.
          6. The underclass have grown more and more discontent and 
        distrustful of the elite.

    On top of the traditional lies and violence, which every autocratic 
ruler uses, the CCP regime has developed new tactics to maintain the 
two China structure which is comprised of:
    One body: sustaining economic growth at all costs to maintain the 
regime's ruling legitimacy
    Two wings: appeasing the elite with corruption and suppressing the 
powerless with rogue police
    Two claws: purging citizen advocates like Liu Xiaobo and blocking 
public opinion.
    Nevertheless, it is not enough to just see the severe division of 
the two societies of China. We must envision the emergence of a new, 
democratic China: the third China which is represented by people like 
Liu Xiaobo.
    Liu Xiaobo's Nobel honor indicates the international recognition of 
the Chinese democracy movement represented by Liu Xiaobo. This, among 
other gestures, will even eventually help strengthen the hand of those 
inside the communist bureaucracy pushing for reform. Liu Xiaobo has 
become the symbol of democracy in China and moral courage and 
determination in struggling for that goal. Simply because of such a 
symbolism, his continued imprisonment presents itself a footnote to the 
vow made in President Hu Jintao's political report at the recent 
Party's 18th Congress that the leadership would ``never take the evil 
road of changing flags and banners''--code for abandoning one-party 
rule. This vow dispelled any doubts about the party's resolve to keep 
its political monopoly.
    But we must remember the CCP does not have the only say about 
China's future. Liu Xiaobo and his symbolism represents another force 
that will help shape the future of China as well as an alternative road 
in China, the evil road in the minds of China's leaders perhaps. And, 
this force is becoming increasingly viable.
    The most important sign is the recent intellectual awakening 
evidenced by the return of the democracy debate which has been at the 
center of the public course around China's leadership change. More and 
more intellectuals, who were generally co-opted by the regime not long 
after Tiananmen and had been acting as defenders of the China's one 
party system, have come to realize and acknowledge the value of Liu 
Xiaobo and ideas and beliefs which are embodied in Charter 08. The 
intellectual recognition that the status quo is unsustainable is always 
the first and vital step towards changing it.
    Despite the division I talked about earlier, there are two often 
overlooked consensuses among
    Chinese from both societies. The first is that the present China is 
not ``normal,'' indeed ``absurd'', a word Liu Xia kept saying in her 
first and totally unexpected media interview in 26 months of her 
illegal house arrest. The second, perhaps agreed upon to a lesser 
degree, is that China will eventually become normal through democratic 
means.
    To find a common ground to lay the foundation for the third China, 
we must create a political language based on universal values that can 
bridge the gap between the two Chinas. And that is exactly what Liu 
Xiaobo, and Charter 08, has been intent on accomplishing.
    Change is unlikely to happen first from within the CCP regime which 
values stability-above-all. A breakthrough for a democratic change will 
surely come from the people.
    The Nobel Peace Prize awarded to Liu Xiaobo has a remarkable 
impacts on the hearts of the people inside China and over the past 
years the civil movement has become increasingly mature, skillful, and 
resilient as evidenced by many cases including Chen Guangcheng, Ai 
Weiwei, and Wukan villagers.
    Liu Xiaobo with Charter 08 is a banner. Backed by large numbers of 
its real-name signers from diverse segments of society, the Charter 
will continue to transform individual protests into a long-lasting 
movement that demands across-the- board, systematic change.
    As the non-governmental forces grow and the civil protests 
escalate, the struggle for power among different factions with the 
communist regime will become more pronounced. Once the external 
pressure reaches a critical mass, the rival factions within the CCP 
will have no choice but take the voices of the citizens seriously and 
seek their support to survive.
    The release of Liu Xiaobo will help signal the coming of that 
change.
    When a large-scale movement takes place again, as it did in 1989, 
we will need leaders to play the roles that Mandela, Havel, Walesa, and 
Aung San Suu Kyi have played in the political changes of their 
respective countries. We will need a group of civil leaders who can 
disrupt the political order and establish itself as the legitimate 
voice of the people in negotiations with the state. Liu Xiaobo, as a 
widely accepted leader both at home and abroad, will surely play a 
unique role in forming such a group, which was most needed but lacking 
in our 1989 Tiananmen movement.
    Therefore, working toward his freedom is vital for a democratic 
change in China. I am particularly encouraged by the strong support for 
Liu Xiaobo and Charter 08 from world human rights leaders and 
activists. Aung San Suu Kyi was released from house arrest in November 
of 2010. For the first time, there is hope for reform in Burma. In 
seeking the Liu's release, we hope and struggle for the same in China.
                                 ______
                                 

               Prepared Statement of Patrick Griffith\1\

                           december 12, 2012
    Good afternoon Mr. Chairman and Mr. Co-Chairman and thank you for 
the opportunity to join you today. The Congressional-Executive 
Commission is an essential source for information about human rights 
violations in China, and I want to begin by thanking the Commissioners 
and the staff for their unwavering support for prisoners of conscience.
---------------------------------------------------------------------------
    \1\ Patrick Griffith can be contacted at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8a8bfaab1bebeb1acb098beaabdbdbcb7b5f5b6b7aff6b7aabf">[email&#160;protected]</a> 
or +1 (202) 223-3733.
---------------------------------------------------------------------------
    As an attorney with Freedom Now and as international pro bono 
counsel to the Lius, my testimony today will focus on why the detention 
of Dr. Liu Xiaobo and his wife Liu Xia is a flagrant violation of 
China's obligations under international law. In addition to a brief 
discussion of recent developments in the case, I will explain in our 
view what steps the United States can take, in light of their continued 
detention, to lead a growing international movement to free them.
    The circumstances of Dr. Liu's detention are widely known and 
largely undisputed, even by the Chinese government. Dr. Liu became a 
prolific essayist after being detained and barred from teaching or 
publishing in the country following his public support of student 
protesters in 1989. At the time of his arrest, Dr. Liu was leading an 
initiative called Charter '08. Modeled on the Czechoslovakian Charter 
'77, the Chinese manifesto called for a peaceful transition to multi-
party democracy and respect for fundamental human rights in China. 
Detained at an unknown location for six months, without charge or 
access to legal counsel, Dr. Liu was ultimately accused of ``inciting 
subversion'' of the state and its socialist system. The prosecution's 
indictment, like the court's judgment on December 25, 2009 sentencing 
Dr. Liu to 11 years in prison, specifically relied on his writings as 
proof of his guilt.
    Shortly after the Norwegian Nobel Committee announced the following 
October that it would award the Peace Prize to Dr. Liu, ``in 
recognition of his long and non-violent struggle for fundamental human 
rights in China,'' the government placed Dr. Liu's wife, Liu Xia, under 
house arrest. Two years later, she remains cut-off from the outside 
world without even the pretense of legal process. Just last week, 
reporters from the Associated Press managed to reach Liu Xia and 
described the desperate situation she faces. In her first interview in 
over two years, Liu Xia confirmed that she has been confined to her 
home, unable to communicate with the outside world, except for weekly 
trips to buy groceries and visit family. She described her continued 
house arrest as ``painfully surreal'' and noted that although she 
initially felt prepared for the consequences of the Peace Prize, she 
never imagined she would be unable to leave her home. After two years 
of house arrest, Liu Xia was described as looking frail and frequently 
confined to bed due to back pain. ``I don't keep track of the days 
anymore'' she said.
    The prosecution of Dr. Liu and the lack of due process afforded to 
him clearly violate China's international obligations. China has signed 
the International Covenant on Civil and Political Rights, which 
specifically protects the right to peaceful freedom of expression. 
These international protections apply regardless of whether Chinese 
domestic law punishes peaceful political expression as ``subversion'' 
and the government's constant refrain that Dr. Liu's imprisonment is 
the result of a criminal prosecution is simply irrelevant. Further, as 
internationally protected rights, their violation is the proper concern 
of the international community--not merely an issue of domestic 
``judicial sovereignty.''
    The violation of Liu Xia's rights is even more appalling. Despite a 
mountain of evidence to the contrary, the Chinese government has 
claimed that ``no legal enforcement measure has been taken'' against 
her. This claim is either a lie or an admission of guilt, and as 
amplified by the recent reports about the toll her house arrest is 
taking, it is also incredibly cruel. Most strikingly, Liu Xia's 
continued detention is patently illegal--nothing under domestic or 
international law authorizes the indefinite detention of a person, 
without any due process whatsoever, for the crime of being married to a 
Nobel Laureate.
    In response to petitions filed by Freedom Now on behalf of Lius, 
the United Nations Working Group on Arbitrary Detention found their 
continued detentions to be arbitrary under international law. Despite 
this finding by the United Nations, and its call for their immediate 
release, life for Dr. Liu and Liu Xia remains unchanged since he 
received the Nobel Peace Prize two years ago. Unfortunately, this lack 
of progress can also be seen in other Chinese cases, such as that of 
imprisoned rights lawyer Gao Zhisheng. As Mr. Gao's wife described to 
this Commission in February, the Chinese government has repeatedly 
disappeared and tortured Mr. Gao because of his support for religious 
minority groups, workers, and victims of land seizures. After holding 
Mr. Gao incommunicado for 20 months, the government announced at the 
end of last year that it would imprison him for an additional three 
years for allegedly violating the terms of a suspended sentence imposed 
in 2006 after Mr. Gao confessed to ``inciting subversion'' after 
interrogators threatened his family. As with Liu Xia, the total lack of 
due process afforded to Mr. Gao belies any notion that the Chinese 
government respects the ``rule of law'' it so frequently claims to 
uphold.
    While the Chinese government's intransigence on these cases is 
certainly frustrating, the international movement to free the Lius is 
gathering cohesion and momentum. Last week, the International Committee 
for Liu Xiaobo, a coalition of six Nobel Peace Prize Laureates and 15 
non-government organizations, including our own, released a letter from 
134 Nobel Laureates calling for the immediate and unconditional release 
of the Lius. What is striking about the letter is not only the number 
of signatures, but also the diversity of its supporters. The letter, 
lead by Archbishop Desmond Tutu and Sir Richard Roberts was signed by 
Laureates from across all six Nobel disciplines, not just his fellow 
Peace Prize winners. Archbishop Tutu is also leading an effort to build 
a citizens' movement in support of the Lius. Launched with a petition 
on Change.org that mirrors the Laureate letter, the initiative 
surpassed 200,000 signatures from 82 countries in less than 48 hours 
and continues to gather support.
    In light of this growing citizens' movement, there are three ways 
that the United States can redouble its efforts and change its tactics 
in support of the Lius. As Representatives Frank Wolf (R-TX) and Jim 
McGovern (D-MA) of the Tom Lantos Human Rights Commission noted last 
Thursday during the launch of the Defending Freedoms Project, respect 
for human rights is a non-partisan issue and the United States has an 
essential role in speaking out against abuses.
    First, as a Nobel Peace Prize Laureate himself, President Obama has 
the unique opportunity to take a leading role in the growing citizens' 
movement. Initiatives such as the Laureate letter organized Archbishop 
Tutu and Mr. Roberts provide Mr. Obama with a ready-made platform to 
highlight the continuing detention of the Lius. While the President did 
call for Dr. Liu's release shortly after he was announced as the 
recipient of the 2010 Nobel Peace Prize, we are disappointed that since 
then he has not publicly reiterated this call nor has he ever 
personally called for Liu Xia's release. The President's voice in 
support of the Lius has the potential to galvanize the international 
community. However, without the President's personal engagement on 
initiatives such as the Laureate letter, Beijing will receive the 
message that it can continue to detain Dr. Liu and Liu Xia in violation 
of international law without suffering any further public consequences.
    Second, the United States should consistently and publicly hold the 
Chinese government accountable for its continued refusal to release the 
Lius. While there is certainly a role for quiet diplomacy, the 
situation for Dr. Liu and Liu Xia has remained largely unchanged over 
the last two years. Because the ultimate measure of success is their 
freedom, the anniversary of the Nobel award presents an opportune 
moment for the United States to reassess its approach. During the Cold 
War, many high-level bilateral meetings, regardless of topic, began 
with the U.S. representative raising concerns about political 
prisoners. Reinstituting such tactics would send a clear message that 
the Chinese government's refusal to comply with international law is 
unacceptable.
    Finally, the United States should take a leading role in 
multilateral efforts to support the Lius. For example, leadership on a 
letter from other G8 countries highlighting the continued detention of 
the world's only imprisoned Nobel Peace Prize Laureate would remind the 
incoming Chinese leadership that if it wants to join the community of 
nations as a full partner, it must do more that merely talk about human 
rights and the rule of law. It is our belief that even a private 
discussion about such a public multilateral effort could have real and 
positive impacts on the ground. Especially in light of the recent news 
about Liu Xia's plight, these kinds of international efforts are 
urgently needed.
    My testimony today has focused on a handful of cases. Admittedly, 
they are among the hardest cases in one of the most difficult 
countries. The challenge of such high profile cases is that they often 
lead to multiple, but ultimately uncoordinated, initiatives. With 
Archbishop Tutu's efforts to develop an increasingly cohesive citizens' 
movement, this anniversary presents an important opportunity to refocus 
attention on the continued detention of Dr. Liu Xiaobo and his wife Liu 
Xia. While relations between the United States and China are 
necessarily complex, respect for fundamental human rights must remain 
at the center of that relationship and the continued detention of the 
Lius is an important bellwether indicating that more must be done.
                                 ______
                                 

                      Prepared Statement of Yu Jie

                           december 12, 2012
    On October 9th, 2010, the day after Liu Xiaobo was awarded the 
Nobel Peace Prize, the Chinese Communist Party arranged a meeting 
between him and his wife Liu Xia.
    Liu told his wife that he had already learned of his award from 
prison officials. Then, facing her with tears in his eyes, he said, 
``this prize is for the lost souls of June Fourth.''
    Liu Xiaobo's confinement made him only the second recipient, in 
more than a century of the prize's history, to be awarded the Nobel 
Peace Prize while in prison. As Liu was unable to attend the ceremony 
held in Oslo, an empty chair was placed onstage to symbolize his 
absence: as you might expect, empty chairs are a rare sight at such 
ceremonies.
    Vaclav Havel, a fellow intellectual, dissident, and political 
prisoner who strongly supported Liu's nomination for the Nobel Peace 
Prize, also shares with Liu a common casual fashion sense. Even after 
becoming President of the Czech Republic, Havel never abandoned his 
aversion to formal dress. He once refused a suit given to him by his 
friend Karel Schwarzenberger, a descendant of Austrian royalty, 
exclaiming ``I can't wear this! It would make me look like a clown.'' 
Havel continued to wear a simple pullover and jeans throughout his 
presidency, riding his scooter through the winding halls of Prague 
Castle.
    Like Havel, Liu Xiaobo has always had a casual and simple style. 
You are not likely to see him in a suit and tie. Once when a friend 
invited him to dinner at an exclusive club, the host stopped Liu at the 
doorway and required him to change out of his jeans: he was less than 
happy with this formality. When Liu was a rising star in the academic 
world in the 1980s, he would often lecture at Beijing Normal University 
in worn old jeans and sandals. One classmate recalls that Liu, who 
always did things his own way even then, would often ``wear a t-shirt, 
shorts, and sandals, with a tattered book bag on his back.'' And 
whoever chose to criticize his sense of style would inevitably receive 
the self-satisfied response that ``this entire outfit cost less than 
ten yuan!''
    If one day Liu Xiaobo regains his freedom, we can be certain that 
China will have already started on the path to democratization. Would 
he be invited to Oslo City Hall, to make up for the prize ceremony that 
he missed? Would he wear a neatly pressed black tuxedo to the 
ceremony?I can't help but wonder how he would look, dressed so 
immaculately from head to toe.
    Every person's life is filled with countless ``ifs.'' Liu Xiaobo's 
is no exception.
    If Liu Xiaobo's father had not been a literature professor, if Liu 
had not been sent down to the countryside as an ``educated youth,'' or 
if he had not been accepted into the Chinese Department at Jilin 
University and joined the Innocent Hearts Poetry Group, amidst the 
unrivaled reign of the technical sciences in that era, would he have 
become just another bumbling engineer?
    If Liu Xiaobo had not been accepted into the Chinese Department at 
Beijing Normal University and remained as an instructor after 
graduation, if he had not published his declaration on the crisis of 
contemporary Chinese literature, and if he had not challenged Li Zehou, 
one of the more influential thinkers of that period, would he have 
become just another inconspicuous and obscure professor of aesthetics?
    If Liu Xiaobo, amidst the tumult of 1989, had only completed his 
term as a visiting scholar abroad rather than returning to Beijing like 
a moth to a flame, if he had only stood on the sidelines of the student 
movement rather than becoming one of the leaders of the hunger strike 
that marked its peak, or if he had just not stood ground with fellow 
protestors on Tiananmen Square until the very last moment, would he 
have avoided the tragedy of prison?
    If, as more and more Chinese dove into the sea of entrepreneurship 
in the 1990s, Liu Xiaobo had decided to change course and just focus on 
making some money, if he had returned to the ivory tower to refocus his 
energies on textual research, or if he had only dedicated some of his 
talent to publishing bestsellers, would he have become just another 
showy nouveau riche intellectual-turned-businessman?
    If, in this new century, Liu Xiaobo had not been elected to the 
presidency of the Independent Chinese PEN Center and dedicated himself 
to the struggle for freedom of expression, if he had not published 
millions of characters worth of political commentary in the overseas 
media and on overseas websites, and if he had not participated in 
drafting and organizing Charter '08, would he have faced a fourth 
prison sentence? And would he have received the Nobel Peace Prize?
    Each of these ``ifs'' presents a crossroads in life. But if, over 
the past thirty years, China did not have Liu Xiaobo, or if Liu's sense 
of duty . . . or shall we say the combination of his sense of duty, 
ambition, and other aspects of his complex personality . . . were not 
quite as strong as they have been, what would our world be like today?
    Liu Xiaobo's existence, and Liu Xiaobo's suffering, are a reminder 
to us all: we are not alone in this world, and cannot think only of 
ourselves. We have to remained engaged with and reflective upon the 
world around us, and bear our shared responsibility.
    In 1977, after years of work in the countryside as an ``educated 
youth,'' Liu Xiaobo was admitted into college, beginning his journey to 
becoming an independent intellectual at the age of twenty-two. Liu's 
growth and activism over the three decades that followed can be divided 
into four main passages.
    The first passage, from 1977 to 1989, was a period in which Liu 
pursued his studies, began his career, and made a name for himself in 
literary circles.
    The late 1970s and 1980s were a rare moment of vitality and hope in 
modern China. Despite the occasional reemergence of political campaigns 
like the Anti-Spiritual Pollution Drive and the Campaign against 
Bourgeois Liberalization, the control and restraint of leaders like Hu 
Yaobang and Zhao Ziyang ensured that such temporary flashbacks to the 
Maoist era did not devastate the recently revitalized cultural and 
intellectual fields. The liberation of thought that characterized the 
1980s continued through the spring of 1989, when it was suddenly and 
cruelly extinguished.
    Liu Xiaobo benefited greatly from the open intellectual atmosphere 
of this period, while also becoming a central contributor to its 
continual expansion. Liu began his studies from literary criticism and 
aesthetics, gradually expanding into a far-reaching critique of Chinese 
traditional culture, Chinese intellectuals, and the prevailing 
political system. His books sold faster than they could be printed, and 
his speeches were all the talk of college campuses.
    In the spring of 1989, while Liu Xiaobo was a visiting scholar in 
the United States, student protests began in Beijing. Liu was 
determined to return, and soon dedicated himself wholeheartedly to this 
movement. Liu's decision transformed him from the ``dark horse'' of 
literary circles to the ``black hand'' behind the student movement, 
from a detached intellectual to a man of action, and from a young 
scholar to an enemy of the state. The echo of gunfire reverberating 
through the streets of Beijing officially marked the end of Liu 
Xiaobo's youth.
    The second passage, from 1989 to 1999, was a period in which Liu 
was imprisoned, persecuted, and remained committed and active while 
increasingly isolated
    This was a decade of unrelenting social and political stasis, 
combined with unprecedented economic growth. It was a decade of 
intellectual suppression and of the widespread abandonment of even the 
most basic of moral values. Deng Xiaoping's call to build a ``well-off 
society'' left the people of China with no choice but to accept the 
reality of being robbed of their freedom and denied their fundamental 
human rights, and to focus their energies upon the sole acceptable 
goal: making money. Money became the only thing in which people could 
truly believe. In academic circles, one after another, nationalism, 
populism, postmodernism, neo-traditionalism, and the ``New Left'' took 
intellectual circles by storm with the tacit approval and encouragement 
of the state. Liberalism, by contrast, was gradually marginalized.
    Liu Xiaobo's human rights activism in this period led to his 
imprisonment three separate times, totaling nearly six years behind 
bars in one decade. And even when he was not in prison, Liu was still 
followed, closely monitored, and even placed under arbitrary house 
arrest by state security, making his life anything but easy. Yet he 
refused to give up, to be discouraged, or to even feel a hint of 
anxiety about his increasingly marginalized position within Chinese 
society. Instead, he continued on his course, reading the latest 
commentaries, observing the social and cultural developments around 
him, collaborating with similarly minded colleagues, and searching for 
new possibilities.
    Throughout this decade, Liu composed and organized signatories to a 
number of open letters addressing such pressing issues as implementing 
democracy, protecting human rights, and overturning the official 
verdict on Tiananmen. Despite these far-reaching efforts, Liu's 
influence continued to be limited primarily to a small circle of 
dissident intellectuals: he had become a lonely trailblazer.
    The third passage, from 1999 to 2008, was a period in which Liu 
wrote extensively on political affairs, and emerged as one of 
contemporary China's central public intellectuals and human rights 
activists.
    This was a decade in which China's economic development continued 
to accelerate, while political reform continued to lag far behind. 
Corruption continued to plague society, and social tensions continued 
to intensify. Throughout the reigns of Jiang Zemin and Hu Jintao, the 
Chinese Communist Party has declared to the outside world the rise of a 
new great power, and attempted to export the so-called China model. Yet 
domestically, the Party has proselytized its ``harmonious society:'' 
beneath its pleasant sounding veneer, such harmony is in reality 
nothing but the maintenance of ``stability'' through unrelenting 
violence, with the growing ranks of secret police running wild with 
increasingly free reign.
    Yet from another perspective, in this decade civil society 
gradually took root and slowly expanded, NGOs sprung up one after 
another, and rapidly expanding Internet use resulted in unprecedented 
access to free information. However, divisions continued to grow within 
the intellectual world, as more and more scholars began to willingly 
abandon their independence and stand wholeheartedly with the 
government.
    Totalitarianism with Chinese characteristics has undergone repeated 
metamorphoses on its path to modernity. The majority has chosen to bow 
down and submit to this superficially benevolent yet actually quite 
coldblooded force; they justify their decision by repeating, ``if you 
can't beat them, join them.'' And as one sector after another gave up 
and joined in this game, cynicism has come to reign over Chinese 
society, erasing any remaining momentum for further reform.
    In this era, Liu Xiaobo continued to be closely monitored by the 
state security forces. However, with the exception of brief periods of 
house arrest and interrogation at particular ``sensitive times'' each 
year, he managed to stay out of prison, allowing for a relative sense 
of security and stability. Combining his extensive knowledge with a 
growing awareness of the essential role of public intellectuals in 
social transformation, Liu maintained a sharp awareness of pressing 
issues and a passion for critical reflection. As one scholar has noted, 
``he never stopped thinking through a workable program for political 
transition, as well as possible directions to pursue following such a 
transition. His thought provides a unique and extremely valuable 
perspective that links the intellectual world with grassroots society, 
in search of a soft landing in a `post-transition' era yet to come.''
    Between 2003 and 2007, Liu Xiaobo also served two terms as the 
president of the Independent Chinese PEN Center, finally developing on-
the-ground infrastructure for the center's activities within China. 
Cooperating with and drawing support from his colleagues, Liu overcame 
the authorities' restrictions on independent organizations, making 
Chinese PEN an unprecedentedly vibrant independent organization 
dedicated to protecting freedom of expression and promoting the 
development of Chinese literature. In 2008, Liu Xiaobo retired from his 
post in Chinese PEN and dedicated himself wholeheartedly to drafting, 
revising, and organizing signatories to Charter '08 work which lasted 
until his arrest on December 8th of that year. The dual leadership 
roles that Liu assumed in this decade, both in Independent Chinese PEN 
and in the preparation of Charter '08, unveiled his new identity as a 
civil society organizer and coordinator.
    The fourth passage in Liu Xiaobo's life began in 2009, and 
continues to this day.
    From the moment that policemen abruptly stormed into his home in 
the middle of night on December 8th, 2008, Liu Xiaobo lost his freedom. 
One year later, in December of 2009, he was sentenced to a total of 
eleven years in prison. But then, one more year later, Liu Xiaobo was 
awarded the Nobel Peace Prize.
    Although the Chinese authorities have imprisoned Liu Xiaobo's body, 
they cannot imprison his name and his ideas. Liu's experience unmasks 
the fundamentally dictatorial nature of the Chinese Communist regime 
for the world to see. And no matter what disguises the Party may try, 
so long as Liu remains locked away in prison, there is no way for this 
regime to hide its despicable nature.
    Now, the honor of the Nobel Peace Prize has elevated Liu Xiaobo to 
a new status. Although Liu's contributions cannot be measured solely 
through this prize, this honor nevertheless places him directly at the 
heart of any future sociopolitical transition in China. Chen Jun, a 
good friend of Liu, notes, ``I strongly believe that Xiaobo has his own 
expectations and even preparations in this regard. If he can persist, 
and continue on the path that he has followed over the years, he will 
become an outstanding figure in history, like Vaclav Havel, leaving a 
deep and lasting imprint upon China. This imprint could be far more 
significant than simply realizing democratization in China. And I 
strongly believe that he is qualified to play such a role.'' In the not 
so distant future, will Liu Xiaobo finally realize the Herculean task 
of bringing real social transformation to China?
    As for what this new passage in Liu's life might bring, we all have 
yet to see. But each one of us who cares about China's future and its 
fate is eagerly waiting, and imagining what is still to come.
                                 ______
                                 

                     Prepared Statement of Liu Min

                           december 12, 2012
    My husband Yu Jie and I met Liu Xiaobo and his wife in 1999. 
Shortly after we became very close friends.
    Liu Xiaobo and Liu Xia began their romantic relationship in the 
early 1990s. After the Tiananmen Square Massacre in 1989, Liu Xiaobo 
was imprisoned for the first time, resulting in the breakup of his 
first marriage. After his release, Liu Xiaobo and Liu Xia fell deeply 
in love. During this time, Liu Xiaobo was imprisoned for a second, and 
then a third time. In the period when Liu Xiaobo was sent to Dalian to 
be re-educated through labor, Liu Xia went to see him every month from 
Beijing, traveling back and forth 38 times over three years. The trip 
between Beijing and Dalian was 1,250 miles.
    Then, after fighting for it time and again, they had a wedding in 
prison. Afterward Liu Xia told me their only celebration was a simple 
lunch: the labor camp cafeteria made a couple of dishes for them. In 
these three years, it was the only time they had eaten at the same 
table.
    The pressure faced by Liu Xia was even greater than that on Liu 
Xiaobo. She was originally a poet, painter and photographer who kept 
her distance from politics. Simply by being Liu Xiaobo's wife, she was 
included on the list of ``enemies of the state.'' Permanently unable to 
live a normal person's life, she developed eye problems, endocrine 
disorders, insomnia, nervous breakdowns, skin illnesses, and severe 
depression. She had to take large doses of sleeping pills to fall 
asleep every night. After Liu Xiaobo was arrested, a friend asked her 
about how she was sleeping. She said, now that Liu Xiaobo is gone, I 
can actually sleep more peacefully. ``A shoe had fallen down from the 
ceiling long ago. For many years, I was like the person waiting for the 
other shoe to drop. Now, the shoe has finally dropped, and I can 
finally feel at peace.''
    Liu Xia and Liu Xiaobo have been married for many years, and they 
have never had children. Liu Xia said, ``A long time ago, we agreed not 
to have children. Having a father in prison in any case is a cruel 
thing to a boy or a girl. So, we are still a DINK family.''
    In December 2008 Liu Xiaobo was arrested; on Christmas, 2009, Liu 
Xiaobo was sentenced to 11 years in prison, and was later sent to the 
prison in Jinzhou, Liaoning, to serve his term. If Liu Xiaobo is to 
serve his term in full, Liu Xia will have traveled back and forth 
between Beijing and Jinzhou more than a hundred times. The trip between 
Beijing and Jinzhou is approximately 600 miles. In total, her trek will 
have been more than 8,000 miles!
    Liu Xia also told me about the severe winters in Jinzhou, and 
because of the lack of heating in prison, Liu Xiaobo felt very cold and 
asked Liu Xia to bring him some thick wool pants. In September 2010, 
after visiting the prison Liu Xia returned to Beijing and asked me to 
buy wool pants for her, so she could bring them the next time she 
visited.
    To our surprise, on October 8, 2010, the news of Liu Xiaobo 
receiving the Nobel Peace Prize broke. The night before, I even went 
out eating and shopping with Liu Xia, and picked out a piece of 
clothing for her. She said it was too expensive. I said, if Xiaobo 
wins, you have to go and accept the award on his behalf, and you don't 
even have any formalwear. So she finally bought it. Yet, she lost her 
freedom shortly after, and could not go to Oslo to accept the award on 
her husband's behalf.
    Just five days after news of Liu Xiaobo receiving the Nobel Prize 
became public, my husband Yu Jie finished a lecture at the University 
of Southern California and hurried back to Beijing because he wanted to 
finish Liu Xiaobo's biography. As soon as Yu Jie arrived in Beijing, he 
was immediately placed under house arrest by the secret police.
    The first week in the beginning, I could still go to work freely. I 
had bought the wool pants for Liu Xiaobo, but I could not get in 
contact with Liu Xia, and so I got in touch with Liu Xia's younger 
brother and brought the pants to him. Subsequently, when Liu Xia's 
brother came out from visiting her, he was searched by the police, who 
found on him a note written by Liu Xia with my name and telephone 
number on it. And so, that day, as soon as I came home from work, I was 
immediately placed under house arrest. Since then, my husband and I had 
been under house arrest, until mid-December. On December 9 Yu Jie was 
kidnapped by the police from home to the outskirts of town, and was 
beaten and tortured, and almost died. Soon after I lost my job as well.
    In January 2012, our family of three finally escaped China, and 
came to America. Liu Xiaobo and Liu Xia's predicaments weigh on our 
minds constantly, especially Liu Xia's being under house arrest and 
isolated from the world for over two years. We worry about her physical 
and mental state. In my own personal experience, when my husband and I 
were put under house arrest for two months, we were together, but a 
life where all our means of contact were cut off, where we could not 
take one step out of our own door, where we could not see a single 
other person on the outside, drove us nearly insane. And Liu Xia is 
alone, under arrest for more than two years! That kind of suffering is 
unbearable. I hope the American government, especially President Obama, 
who is also a Nobel Peace Prize recipient, can personally and directly 
put out a strong call to the Chinese government, and demand that they 
release Liu Xiaobo and Liu Xia immediately.
                                 ______
                                 

Prepared Statement of Christopher Smith, a U.S. Representative From New 
     Jersey; Chairman, Congressional-Executive Commission on China

                           december 12, 2012
    Two years after the independent Nobel Committee awarded the Nobel 
Peace Prize to Chinese intellectual and democracy advocate Liu Xiaobo, 
little has changed. Liu Xiaobo remains isolated in prison. He remains 
thousands of miles away from his wife, Liu Xia, whom authorities have 
now held under house arrest for 26 months. Chinese authorities continue 
to defend their imprisonment of Liu Xiaobo and continue to deny Liu 
Xia's de facto house arrest. Despite global calls to release the Nobel 
Peace Prize laureate and his wife, Chinese authorities remain resolute 
in their will to silence them.
    It has now been a year since we last convened a hearing to discuss 
this outrageous and senseless violation of the Lius' rights--a year 
later, we ask the same questions and express the same concerns.
    Liu Xiaobo's ordeal is well-known. In December 2010, The Nobel 
Committee awarded the Nobel Peace Prize to Liu Xiaobo ``for his long 
and non-violent struggle for fundamental human rights in China.'' A 
year earlier, Chinese authorities sentenced him to 11 years in prison 
for ``inciting subversion of state power,'' the longest known sentence 
for that crime, simply because he exercised his internationally 
recognized right to free expression. Liu's conviction, according to 
court documents, was based on Charter 08 and six essays he wrote. Mr. 
Liu's trial, conviction, and sentence, once again demonstrated the 
Chinese government's failure to uphold its international human rights 
obligations and its failure to abide by procedural norms and safeguards 
that meet international standards.
    Liu Xiaobo co-wrote and signed Charter 08--a treatise urging 
political and legal reforms based on constitutional principles. Charter 
08 states that freedom, equality, and human rights are universal values 
of humankind and that democracy and constitutional government are the 
fundamental framework for protecting these values. In response to this 
public call for rights and reform, officials blocked access to and 
censored all mentions of Charter 08. They questioned, summoned, or 
otherwise harassed hundreds of Chinese citizens for contributing to or 
signing the document.
    Today, we have little news about Liu's current condition. Liu 
remains in prison--there is little doubt that the Chinese continue to 
treat him unmercifully.
    We do, sadly, have some news. While we previously knew that 
authorities continued to hold Liu's wife under a de facto form of house 
arrest--with little contact with the outside world--we have recently 
learned more about her unbearable circumstances and detention. Last 
week, two Associated Press journalists were able to briefly interview 
Liu Xia, while the guards that keep watch over her were away for a 
midday break. Upon opening the door, the journalists found a woman 
shocked by the rare opportunity to communicate with those outside her 
prison.
    She wept as she decried the injustice and absurdity of her 
detention. She told them of her poor health and of the outrageous 
abuses she has suffered. Her ongoing plight has been referred to by 
some as the ``most severe retaliation by a government given to a Nobel 
winner's family.''
    Liu Xia remains detained in violation of Chinese law--a victim of 
the government's contempt and paranoia. Angered by Liu's award and his 
global support, Chinese authorities have unjustly detained this 
innocent woman.
    The targeting of wives and children, of grandparents and 
associates, however, remains a common practice for the Chinese 
government. A few weeks ago, the nephew of Chen Guangcheng, the blind 
activist who escaped to the United States earlier this year, was 
sentenced to 39 months imprisonment after defending himself from thugs 
who attacked his family. As with Liu's case, the trial was marred by 
procedural irregularities and violations. In recent months, the wife 
and child of Mongolian activist Hada have been confined to their home 
illegally and blocked from communicating with others. Today, we will 
hear moving, first-hand accounts of how families suffer when courageous 
individuals speak out against the Chinese government.
    This, of course, is not a new tactic by Chinese authorities. In 
recent years we have heard how Chinese officials and those operating 
under their authority have interrogated children or harassed 
acquaintances. Chinese guards have shouted expletives at school-age 
sons and daughters and enforced economic reprisals against relatives 
and loved ones.
    Liu Xia is not alone--but, she remains a symbol of these often 
overlooked collateral victims.
    Why target family members and friends? The Chinese government fears 
the free thinkers they love and support. It acts in ways to silence 
those free thinkers who promote the best ideals and seek the greatest 
good for China. In China, free thinkers represent a threat to the 
government's ``stability''--while representing new hopes for the 
Chinese people.
    This threat of reform is China's greatest concern. Recently, after 
the sentencing of Chinese official Bo Xilai's wife for intentional 
homicide, leading human rights and China experts suggested that she 
might receive a medical pardon after nine years. Nine years for 
murder--as compared to eleven for Liu Xiaobo's calls for freedom. This 
is the China we are dealing with--one in which pre-meditated murder is 
viewed with less concern than calls for non-violent political reform. A 
China in which Chinese officials are sentenced to reclusive, plush 
prisons, while the wives and children and parents of rights advocates 
are doomed to a Kafkaesque existence--languishing in domestic prisons 
without opportunities for appeals or pardons.
    A year after our last hearing on the subject, little has changed. 
Mr. Liu remains in prison and Mrs. Liu under an extralegal form of 
house arrest. Our resolve, however, has changed--in fact, it has grown 
stronger. Today, we are more concerned about the current conditions for 
Liu Xiaobo and Liu Xia. And, we are more outraged at the lack of 
humanity demonstrated by those perpetrating these crimes--from the 
thugs guarding Liu Xia's door to the newly-appointed leadership in 
Beijing. Today, our resolve--and the resolve of free-minded people--is, 
without question, stronger.
    A year ago, we called on China to immediately and unconditionally 
release Liu Xiaobo and Liu. Today, we similarly demand that China end 
this ``absurdity'' for these noble citizens--and for all who remain 
detained in China for their political beliefs. We have not forgotten 
Liu Xiaobo and his wife. We commit to seeking their release from 
confinement and detention. We will not forget them next year, or the 
year thereafter--regardless of the circumstances. We will continue to 
demand they be freed and continue to demand that all Chinese citizens 
enjoy the fundamental freedoms protected under international law.
    It is with this resolve and concern that we are joined today by a 
panel of experts on these cases and on China more broadly. I would like 
to thank them for their advocacy on behalf of Mr. Liu and Mrs. Liu and 
for sharing their insights into recent developments here today.
                                 ______
                                 

  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
        Cochairman, Congressional-Executive Commission on China

                           december 12, 2012
    Good morning. I want to thank Chris Smith for hosting this hearing 
on the ongoing detentions of two human rights advocates. We stand 
united behind this cause.
    We stand with our government, governments around the world, and the 
134 Nobel laureates led by Archbishop Desmond Tutu, to urge incoming 
Chinese President Xi Jinping to immediately and unconditionally release 
Liu Xiaobo and his wife Liu Xia.
    Let me be clear, there is no question that China has made progress 
on many fronts.
    But we know that the Chinese people are not satisfied with economic 
progress in the absence of justice. We know that Chinese citizens--like 
women and men around the world--want and deserve basic human rights.
    They deserve freedom and justice and equality of opportunity. They 
deserve to voice their opinions without fear of oppression.
    That's why we're here today.
    For decades, Liu Xiaobo has been one of the most passionate and 
thoughtful advocates for freedom, justice, and human rights in China.
    He was a leader during the 1989 Tiananmen democracy protests. He 
has written nearly 800 essays advocating human rights and peaceful 
reform. He was one of the co-authors of Charter 08, a document released 
in 2008 calling for an end to authoritarian rule and respect for human 
rights.
    For this, Liu has been censored.
    He has endured three years in a labor camp. And, now, he is serving 
the fourth year of an 11-year prison sentence.
    That's why, when the Nobel Committee awarded Liu the Peace Prize in 
2010, they noted his ``long and non-violent struggle for fundamental 
human rights in China.''
    They understood, just as many in China and around the world 
understand, that freedom and human rights are not freely given.
    It takes courage and commitment. It takes people like Liu who are 
willing to sacrifice for their neighbors, families, fellow citizens--
and the next generation.
    Dr. Martin Luther King, Jr. popularized this struggle as a fierce 
commitment to building the ``beloved community''.
    Indeed, Liu follows in the tradition of Peace Prize winners, like 
Dr. King, who have labored to build a better world, brick by brick.
    In 1991, the Nobel committee awarded the prize to Aung San Suu Kyi 
for her democratic opposition to a brutal regime.
    All of these activists have fought oppression with a message of 
non-violence, an unwillingness to give up, and love.
    Liu spoke about the efficacy of nonviolence in 2006 when he wrote 
that ``the greatness of non-violent resistance is that even as man is 
faced with forceful tyranny . . . the victim responds to hate with love 
. . . and to violence with reason.''
    Each day China denies citizens, like Liu, basic freedoms; China 
loses out on the diversity of opinions that lead to better government 
policies and a more just society.
    Imprisoning Liu Xiaobo is not the act of a nation serious about 
earning a place of respect at the global table.
    It is an act of an authoritarian state afraid of the strength of 
its own people.
    Aung San Suu Kyi was finally able to give her Nobel acceptance 
speech in June of this year, more than two decades after she was 
awarded the prize. During her speech she said everyone is capable of 
contributing to peace.
    Liu Xiaobo exemplifies the courage needed to cultivate justice.
    We urge China to release the Liu family. Liu Xiaobo shouldn't have 
to wait two decades to give his own acceptance speech.
    We look forward to that day. Thank you and I look forward to the 
testimony of our esteemed witnesses.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
